<html>
<title> - [H.A.S.C. No. 115-4] THE STATE OF THE MILITARY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                                  
 
                          [H.A.S.C. No. 115-4]

                       THE STATE OF THE MILITARY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 7, 2017
                            


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          






                           _________ 
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-676                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     





                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Committee on 
  Armed Services.................................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Allyn, GEN Daniel B., USA, Vice Chief of Staff of the Army.......     2
Moran, ADM William F., USN, Vice Chief of Naval Operations.......     3
Walters, Gen Glenn M., USMC, Assistant Commandant of the Marine 
  Corps..........................................................     6
Wilson, Gen Stephen W., USAF, Vice Chief of Staff of the Air 
  Force..........................................................     4

                                APPENDIX

Prepared Statements:

    Allyn, GEN Daniel B..........................................    59
    Moran, ADM William F.........................................    69
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    57
    Walters, Gen Glenn M.........................................    90
    Wilson, Gen Stephen W........................................    75

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Kelly....................................................   106
    Ms. McSally..................................................   105
    Mr. Wittman..................................................   105

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................   118
    Mr. Graves...................................................   117
    Ms. Hanabusa.................................................   121
    Mr. Lamborn..................................................   115
    Mr. Langevin.................................................   109
    Mr. Scott....................................................   116
    Mr. Shuster..................................................   113
    Ms. Speier...................................................   114
    Ms. Stefanik.................................................   120
    Mr. Turner...................................................   110
    
                       THE STATE OF THE MILITARY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, February 7, 2017.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Last week, the committee held classified and unclassified 
sessions on the state of the world or, more accurately, the 
state of the world environment in which the American military 
must operate and U.S. national security must be protected. I 
was struck by the essential point General Petraeus made that we 
face many threats, and can overcome any of them, except perhaps 
what we do to ourselves.
    Today, we turn to the state of the U.S. military. I 
continue to be concerned and sometimes even disturbed by 
evidence that is accumulating on the damage inflicted upon our 
military in recent years and the stresses our forces are under. 
That damage comes from a variety of factors, including budget 
cuts of 20 percent, continuing resolutions, the failure to 
recognize or at least admit and then address mounting readiness 
problems, as well as the shrinking size of the force, while 
keeping the tempo of operations high.
    There is certainly plenty of blame to go around between 
both parties and both the executive and legislative branches 
for this state of affairs. But now with a new administration 
and a new Congress, we have an opportunity to begin the 
repairs. To do that, we need a clear understanding of the state 
of our military and the immediate trends that challenge us. For 
that, we turn to the vice chiefs of each of our services, and 
we ask that each of you provide this committee your best 
professional military judgment in answering the questions we 
pose.
    As was emphasized last week, the world situation is 
dangerous and complex. This is no time to exaggerate or to 
underplay the challenges before us. Only by facing them 
squarely can we meet the obligations all of us have to the 
Constitution, to the men and women who serve, and to the 
American public.
    I will now yield to the distinguished acting ranking 
member, the gentleman from Tennessee, for any comments he would 
like to make.

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Cooper. Thank you, Mr. Chairman.
    I would like to ask unanimous consent that the opening 
statement of the real ranking member, Mr. Smith, be inserted in 
the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 57.]
    Mr. Cooper. And speaking on my own behalf, I think we all 
realize that few subjects are more important for the future of 
the Nation than the readiness of our military forces. I hope 
that we all know that few things are more detrimental to that 
readiness than sequestration.
    So I share the chairman's hope, and I am not ready to be 
optimistic yet, but I hope that we can deal with sequestration 
this year and end it permanently. So it is going to be up to 
the folks on this committee, the largest committee in the House 
of Representatives, to make sure that our impact is felt in 
ending sequestration.
    So thank you, Mr. Chairman. I look forward to the testimony 
of the witnesses.
    The Chairman. Thank you, sir.
    I am pleased to welcome each of our witnesses today and 
also to express, I know, the committee's appreciation for your 
service in this job and for each of your service to the 
country. Without objection, your complete written statements 
will be made part of the record.
    And let me just briefly introduce General Daniel Allyn, 
Vice Chief of Staff of the Army; Admiral William Moran, Vice 
Chief of Naval Operations; General Stephen Wilson, Vice Chief 
of Staff of the Air Force; and General Glenn Walters, Assistant 
Commandant of the Marine Corps. Again, thank you all for being 
here.
    We would be interested in any opening comments each of you 
would like to make.
    We will start with you, General Allyn.

 STATEMENT OF GEN DANIEL B. ALLYN, USA, VICE CHIEF OF STAFF OF 
                            THE ARMY

    General Allyn. Thank you, Chairman Thornberry and 
Congressman Cooper, distinguished members of the committee. 
Thank you for the opportunity to testify on the state of your 
United States Army. I appreciate your support and demonstrated 
commitment to our soldiers, Army civilians, families, and 
veterans, and look forward to discussing the strength of our 
Army with you today.
    This is a challenging time for our Nation and certainly for 
our Army. The unipolar moment is over and replacing it is a 
multipolar world characterized by competition and uncertainty. 
Today, the Army is globally engaged with more than 182,000 
soldiers supporting combatant commanders in over 140 worldwide 
locations.
    My recent travel, I visited our soldiers in 15 countries 
since Veterans Day, reinforces that the Army is not about 
programs. It is all about people; our people executing security 
missions all around the globe. The strength of the All-
Volunteer Force truly remains our soldiers. These young men and 
women are trained, ready, and inspired. And we must be 
similarly inspired to provide for them commensurate with their 
extraordinary service and sacrifice.
    To meet the demands of today's unstable global security 
environment and maintain the trust placed in us by the American 
people, the Army requires sustained, long-term, and predictable 
funding.
    Absent additional legislation, the caps set by the Budget 
Control Act [BCA] of 2011 will return in fiscal year 2018, 
forcing the Army to once again draw down our end strength, 
reduce funding for readiness, and increase the risk of sending 
undertrained and poorly equipped soldiers into harm's way, a 
preventable risk our Nation must not accept.
    We thank all of you for recognizing that plans to reduce 
the Army to 980,000 soldiers would threaten our national 
security. And we appreciate all your work to stem the drawdown. 
Nevertheless, the most important actions you can take, steps 
that will have both positive and lasting impact, will be to 
immediately repeal the 2011 Budget Control Act and ensure 
sufficient funding to train, man, and equip the fiscal year 
2017 NDAA [National Defense Authorization Act] authorized 
force. Unless this is done, additional top-line and OCO 
[Overseas Contingency Operations] funding, though nice in the 
short term, will prove unsustainable, rendering all your hard 
work for naught.
    In this uncertain environment, readiness remains our 
number-one priority. Sufficient and consistent funding is 
essential to build and sustain current readiness, to progress 
towards a more modern, capable force sized to reduce risk for 
contingencies and to recruit and train the best talent within 
our ranks. Readiness remains paramount because the Army does 
not have the luxury of taking a day off. We must stand ready at 
a moment's notice to defend the United States and its 
interests.
    With your assistance, the Army will continue to resource 
the best-trained, best-equipped, and best-led fighting force in 
the world. We thank you for the steadfast support of our 
outstanding men and women in uniform. And please accept my 
written testament for the record. And I look forward to your 
questions.
    Thank you, Mr. Chairman.
    [The prepared statement of General Allyn can be found in 
the Appendix on page 59.]
    The Chairman. Thank you.
    Admiral.

  STATEMENT OF ADM WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Moran. Thank you, Mr. Chairman.
    And good morning to the members of the committee. It is a 
privilege to be here with my fellow vice chiefs to talk about 
the readiness of our military.
    It is easiest for me to talk to you in terms of simple 
supply and demand. As many of you know, the ongoing demand for 
naval forces far exceeds our long-term supply. And that need 
continues to grow with no end in sight. Supply is best summed 
up in one fact: Your Navy today is the smallest it has been in 
99 years.
    That said, we are where we are, which makes it urgent to 
adequately fund, fix, and maintain the fleet that we do have. 
And by the way, we have never been busier. A quick snapshot 
around the globe and you will see the Navy is the Nation's 
primary deterrence policy in places like the Arabian, 
Mediterranean, and South China Seas.
    Over the past 5 or 6 years, this call for deterrence and to 
be ready to take action has grown, principally because of the 
aggressive growth from expanding naval competitors like Russia 
and China. And when you add threats from Iran, North Korea, 
ISIS [Islamic State of Iraq and Syria], and others, it is a 
very, very busy time for your Navy.
    Our sailors have always risen to the occasion, answering 
the call no matter the circumstances and no matter the 
resources. From providing food, water, and medical assistance 
in Haiti, to striking hostile sites in Yemen, to Navy SEALs 
[Sea, Air, Land teams] taking down terrorist leaders, we are 
getting it done, because that is who we are, that is what makes 
us the best navy in the world. But the unrelenting pace, 
inadequate resources, and small size are taking their toll.
    Our testimony today may seem like a broken record. Our Navy 
faces increased demand without the size and resources required 
to properly maintain and train for our future. And every year 
we have had to make tough choices, often choosing to sacrifice 
long-term readiness to make sure we could be ready to answer 
the call today.
    We are in fact putting our first team on the field, but we 
lack serious depth on the bench. This didn't happen overnight; 
readiness declines tend to be insidious. From year to year we 
have all learned to live with less and less. We have certainly 
learned to execute our budget inefficiently with nine 
consecutive continuing resolutions, but this has forced us to 
repeatedly take money from cash accounts that are the lifeblood 
of building long-term readiness in our Navy. It is money for 
young lieutenants to fly high and fast, and who need air under 
their seats to perfect their skills in the future. It is money 
for spare parts so sailors can fix the gear that they have. It 
is money for sailors to operate at sea in all kinds of 
conditions to build instincts that create the best warfighters 
in the world. With your help we have the opportunity to change 
this.
    It starts by strengthening our foundation. Let's ensure the 
ships and aircraft that we do have are maintained and 
modernized so they provide the full measure of combat power. 
Then let's fill in the holes by eliminating inventory 
shortfalls in ships, submarines, and aircraft throughout the 
fleet. And together by taking these steps, we can achieve the 
ultimate goal of sizing the Navy to meet the strategic demands 
of this dynamic and changing world.
    Mr. Chairman, thank you for the opportunity to be here, and 
I look forward to your questions.
    [The prepared statement of Admiral Moran can be found in 
the Appendix on page 69.]
    The Chairman. General Wilson.

 STATEMENT OF GEN STEPHEN W. WILSON, USAF, VICE CHIEF OF STAFF 
                        OF THE AIR FORCE

    General Wilson. Thank you Chairman Thornberry, Congressman 
Cooper, distinguished members of the committee.
    On behalf of the Secretary of the Air Force and our chief 
of staff, it is an honor to be with you today and to be with my 
fellow vice chiefs to talk to you about the state of our Air 
Force and readiness.
    Your American airmen are proud to be part of the most 
powerful joint force warfighting team in its history. Together 
we provide leaders with a broad range of options to protect our 
country and its interests both home and abroad. For the past 70 
years, responsive, flexible, and agile American airpower has 
been our Nation's first and most sustainable solution in both 
crisis and conflict underwriting every other instrument of 
power. We provide the Nation with unrelenting Global Vigilance, 
Global Reach, and Global Power.
    In short, your Air Force is always in demand and always 
there. Look no further than 2 weeks ago when your Air Force 
executed a precision strike in Sirte, Libya, killing over 100 
violent extremists. This was a textbook transregional 
multidomain, multifunction mission. Air Force space, cyber, and 
ISR [intelligence, surveillance, and reconnaissance] warriors 
provided precision navigation and timing while monitoring enemy 
communication and movement.
    Simultaneously, two B-2 bombers took off from Missouri, 
flew 17 hours one way, refueled with numerous tankers and 
teamed with two MQ-9s to employ precision munitions within 10 
seconds of their designated time over target. They then flew 
another 17 hours home and landed safely back in the United 
States.
    Meanwhile, airmen operate 60 persistent remotely piloted 
aircraft patrols, 24/7/365. They are the blinking eye for 
combatant commanders. They remotely fly missions from the 
continental United States, teaming with nearly 20,000 forward 
deployed airmen to support operations like the recent events in 
Raqqa and Mosul where our RPA [remotely piloted aircraft] 
fighters and bombers have conducted 92 percent of the strikes 
against ISIS.
    We did this all while simultaneously ensuring two-thirds of 
our nuclear triad and 75 percent of our nuclear command and 
control remain robust, reliable, flexible, and survivable 
options for the nations. During the allotted time of this 
hearing, an average of 65 mobility aircraft will take off; 
430,000 cyber connections will be blocked; 5 homeland defense 
missions will fly; and 3 strikes against ISIS will occur. Each 
of these actions are enabled by airmen providing space-based 
position, navigation, and timing and communication for our 
military, while also providing GPS [Global Positioning System] 
capability to the world's 3 billion users.
    The capabilities of our airmen provided to our Nation and 
our allies have never been more vital and the global demand for 
American airpower will only grow in the future. American airmen 
remain professional, innovative, and dedicated; quite frankly, 
the envy of the world. However, we are out of balance. The 
demand for our mission and our people exceed the supply. The 26 
years of continuous combat has limited our ability to prepare 
for the future against advanced future threats, scenarios with 
the lowest margin of error and the highest risk to national 
security.
    This nonstop combat, paired with the budget instability and 
lower-than-planned top lines, has made the United States Air 
Force the smallest, oldest equipped, and least ready in our 
history. We have attempted to balance risk across the force to 
maintain readiness. And we have been forced to make 
unacceptable trades between readiness, force structure, and 
modernization.
    Today's global challenges require an Air Force ready not 
only to defeat violent extremism, but an Air Force prepared to 
modernize for any threat the Nation may face.
    Mr. Chairman, I will close by quoting General Douglas 
MacArthur. He sent the following cable as he escaped the 
Philippines in 1942. He said, ``The history of failure in war 
can be summed up in two words: too late. Too late in 
comprehending the deadly purpose of a potential enemy, too late 
in realizing the moral danger, too late in preparedness.''
    Distinguished members of the committee, preparedness or 
readiness cannot be overlooked. Your Air Force needs 
congressional support to repeal the Budget Control Act and 
provide stable, predictable funding. It is critical to 
rebuilding our military's full-spectrum readiness, which is the 
number-one priority for the Secretary of Defense. We need to 
act now, before it is too late.
    On behalf of the chief of staff and the Secretary of the 
Air Force and the 660,000 Active, Guard, Reserve, and civilian 
airmen who serve our Nation, thank you for your tireless 
support for us.
    I look forward to your questions.
    [The prepared statement of General Wilson can be found in 
the Appendix on page 75.]
    The Chairman. General Walters.

 STATEMENT OF GEN GLENN M. WALTERS, USMC, ASSISTANT COMMANDANT 
                      OF THE MARINE CORPS

    General Walters. Mr. Chairman and distinguished members of 
the House Armed Services Committee, thank you for the 
opportunity to appear today and report on the readiness of your 
Marine Corps.
    The Marine Corps remains dedicated to our central role as 
our Nation's naval expeditionary force in readiness. During 15 
years of conflict, we focused investment on ensuring marines 
were prepared for the fight, and they were. Today, our 
operational tempo remains as high as it was during the peak of 
our operations in Iraq and Afghanistan. Our continued focus on 
deployed unit readiness combined with the fiscal uncertainty 
and funding reductions leave your Marine Corps facing 
substantial readiness challenges.
    Your Marine Corps is insufficiently manned, trained, and 
equipped across the depth of the force to operate in an ever-
evolving operational environment. Due to years of fiscal 
constraints, the Marine Corps is fundamentally optimized for 
the past and has sacrificed modernization and infrastructure to 
sustain our current readiness posture.
    In addition to the increased resources for operations and 
maintenance needed to improve current readiness across the 
entirety of our Marine Corps, we require your support in three 
key areas to regain the readiness levels our Nation requires of 
us. Over the past 18 months, we have identified various end 
strengths and associated capabilities and modernization 
required to operate in the threat environment characterized by 
complex terrain, information warfare, electromagnetic 
signatures, and contested maritime domain.
    We need to increase our Active Component end strength. We 
are confident that an increase of 3,000 marines per year 
maintains a rate of growth consistent with effective recruiting 
and accession while maintaining our high standards.
    Our bases, stations, and installations are platforms where 
we train and generate our readiness. The continued underfunding 
of facility sustainment, restoration, and modernization, and 
military construction, continues to cause progressive 
degradation of our infrastructure and creates increased long-
term cost. We have a backlog of over $9 billion in deferred 
maintenance for our infrastructure. We require up-to-date 
training systems, ranges, and facilities [to] support the 
fielding of new equipment, and simulations systems that 
facilitate improved training and standards of readiness.
    Supporting the joint force requirements of the past 15 
years consumed much of the useful life of our legacy systems, 
and fiscal uncertainty and reduced defense spending forced 
significant delays in our modernization efforts. There is 
significant cost associated with maintaining and sustaining any 
legacy system without a proportional capability increase 
associated with that investment.
    As we continue to spend limited fiscal resources to sustain 
legacy systems, developed for threats of 20 years ago, we risk 
steadily losing our competitive advantage against potential 
adversaries. We need to modernize our ground tactical vehicle 
and aircraft fleets soonest, accelerating the investment in 
amphibious ships is necessary to reach our wartime requirement. 
If forced to continue to pursue a path of investing in legacy 
systems in lieu of modernizing our force, we will find our 
Marine Corps optimized for the past and increasingly at risk to 
deter and defeat our potential adversaries.
    On behalf of all of your marines, sailors, and their 
families and civilians that support their service, we thank the 
Congress and this committee for the opportunity to discuss the 
key challenges your Marine Corps faces. While much work needs 
to be done, the authorizations within coupled with the 
sufficient funding and the repeal of the Budget Control Act, 
will put us in a path to build and sustain our Marine Corps for 
the 21st century.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Walters can be found in 
the Appendix on page 90.]
    The Chairman. Thank you.
    I want to briefly touch on some of the facts, largely in 
you-all's written testimony, but also some press reports. And I 
will just go down the line.
    General Allyn, in your written testimony, it says only 
about one-third of the brigade combat teams and one-fourth of 
our combat aviation brigades and half of our division 
headquarters are ready. And then you say only three brigade 
combat teams could be called upon to fight tonight in the event 
of a crisis.
    Now, I think we have 58, right, brigade combat teams, and 
your testimony is that only 3 of them could be called upon to 
fight tonight. Is that right?
    General Allyn. That is accurate, Chairman, and it reflects 
the realities of both the OPTEMPO [operations tempo] and the 
recurring demand that our forces face. When we say fight 
tonight, that means that unit needs no additional people, no 
additional training, and no additional equipment.
    And three is where we are at today. And those that we say 
are ready, the one-third, it is actually just higher than that, 
of our forces that are ready, require somewhere in the range of 
30 days to ensure that they have everything they need to meet 
the demands of immediate combat.
    The Chairman. Well, you kind of hope an enemy will be 
accommodating and give us the 30 days, so that we can be ready. 
You then go on on the next page, in talking about equipment and 
say today we are out-ranged, outgunned, and outdated. And then 
in your testimony you also say, so if you put all this 
together, the Army can only accomplish defense planning 
guidance requirements at high military risk.
    Now, General Milley has kind of talked about this, but 
explain what that means to us. My layman's ears seem to hear 
that we can only do what the country asks us to do with a 
pretty darn good chance that we won't be successful.
    Am I right?
    General Allyn. Chairman, basically what it comes down to is 
the term that you heard General Wilson use from General 
MacArthur. We will be too late to need. Our soldiers will 
arrive too late, our units will require too much time to close 
the equipping and manning and training gaps. And as you 
highlighted, hope is not a method and we cannot count on the 
enemy providing us that window of opportunity to close those 
gaps.
    The end result is excessive casualties, both to innocent 
civilians and to our forces that are already forward stationed 
to close the rest of the force required to accomplish the 
mission.
    The Chairman. Admiral, I had several things I wanted to ask 
you about. You mentioned the Navy is smaller than it has been 
in the last 99 years. But I want to ask you about a story that 
came out yesterday that you don't mention in your testimony 
that says, according to the Navy, 53 percent of all Navy 
aircraft cannot fly. And that is about twice the historic norm. 
If you go to F-18s, 62 percent are out of service, 27 percent 
in major depot work, and 35 percent simply awaiting maintenance 
or parts. This is a press story from yesterday in Defense News.
    Are those statistics accurate?
    Admiral Moran. Yes, sir, they are.
    The Chairman. It is a little hard for me to know what 
question to ask next. Fifty-three percent of all Navy aircraft 
can't fly and 62 percent of our strike F-18s can't fly today? 
That is our status.
    Admiral Moran. Yes, sir. When it comes to the strike 
fighter community, that is our legacy Hornets, A through Ds, 
and our Super Hornets, E and F versions. Our legacy Hornets, 
which we and the Marine Corps operate today, are well beyond 
their design life, let alone their service life. They were 
designed for 6,000 hours; we are extending the life on those 
Hornets into the 8,000 to 9,000 hour range.
    They have been around as long as General Walters and I have 
been serving, for the most part, so they are pretty old. It 
takes about twice the amount of man-hours to fix one of those 
jets as it was designed to take, which gives you a pretty good 
indication how old they are, and the capacity in our depots has 
been diminished since sequestration and furloughs back in 2013 
and we are trying to rebuild that capacity today to try to get 
those jets turned around.
    So on a typical day in the Navy, about 25 to 30 percent of 
our jets and our airplanes are in some kind of depot 
maintenance or maintenance which does not allow them to fly. So 
your statistics of twice that amount, or two-thirds today, is a 
reflection of how hard we have flown these jets over the last 
15 years. And the fact that we have not re-capped those jets, 
in other words, we haven't built new or we have not bought 
enough new ones to replace them, and we have been waiting for 
quite some time for the F-35 to deliver, which we were counting 
on 7, 8 years ago to start filling in those holes, all of that 
adds up to the numbers you reflected.
    The Chairman. It is true, is it not, that a fair number of 
the strikes against Al Qaeda and ISIS over the years have been 
carried out by these Navy jets?
    Admiral Moran. Yes, sir. We can and we do put--we put ready 
airplanes and ready crews forward on deployment. Yet, as I 
reflected in my opening statement, there is no depth on the 
bench to go behind them, though, if we had to surge forces. I 
think it is consistent with what General Allyn just described 
in the Army.
    The Chairman. Yes.
    Admiral Moran. We will be late to get there if we want to 
have full up equipment to get to the fight in the future.
    The Chairman. And turning to the Air Force, General Wilson, 
you testified in your written statement, and I think you said 
this, ``The smallest and oldest Air Force we have ever had. 
Average aircraft age is 27 years old today.'' But you go on and 
talk about the pilot shortage where, at the end of fiscal year 
2016, we were 1,555 total pilots short and 3,400 aircraft 
maintainers short.
    What I am struck by is we have--we are short 1,500 pilots, 
3,400 maintainers in the smallest Air Force we have ever had. 
Certainly that translates, does it not, into less military 
capability?
    General Wilson. Chairman, that is exactly right. As a 
context, in 1991 we went to Desert Storm, our Air Force was 
500,000 people and 134 fighter squadrons. Today we find 
ourselves at 317,000 total force--317,000 force--317,000 in our 
Active Force, with 55 fighter squadrons.
    You mentioned the pilot shortage. Of those numbers, we have 
723 short in our fighter pilots. We don't have a problem 
bringing people into the Air Force, we are doing our best to 
retain people. But when you are flying old equipment, 27 years 
old as an average, and you are short on maintainers to fix 
those airplanes and to talk to the vice chief, Vice CNO [Chief 
of Naval Operations], who talked about the depots, is they 
break into the depots and they find things that they have never 
found before and it takes real craftsmens and artisans to fix 
those airplanes, and it takes longer, we are flying less.
    Again, as a matter of context, at the very bottom in the 
late 1970s of what we called the hollow force, fighter pilots 
were flying about 15 sorties a month and about 20 hours. Today, 
we are flying less hours and less sorties than we were in the 
late 1970s.
    Now, we didn't get there overnight in the 1970s and we 
found a way out of that. There is a way out of this. The way 
out of this starts first with manpower. We need more manpower 
to be able to plus-up our force.
    We need to get the right training. With the right training, 
we can bring in the right weapons system support. With the 
weapons system support we can increase the flying hours. With 
the flying hours, we reduce the OPSTEMPO. And we need time, and 
over time we will increase our readiness. We think it will take 
6 to 8 years to bring our readiness level back where it needs 
to be. But it starts first with people.
    The Chairman. Six to eight years under a favorable 
scenario, I assume?
    General Wilson. Yes, Chairman, yes.
    The Chairman. Well, I don't want to toot our own horn, but 
thank goodness we tried to stop the shrinkage of end strength 
in last year's NDAA. We hadn't fixed anything, but hopefully we 
kept it from getting worse.
    Finally, Marine Corps General Walters, one of the things 
that just stuck out to me in your written testimony was the 
statement that flight-hour averages per crew per month are 
below the minimum standards required to achieve and maintain 
adequate flight time and training and readiness levels. So it 
is similar, I guess, to what General Wilson just said.
    We are flying less now than we have, even in the hollow 
force of the 1970s, that was what he said. You say below the 
minimum standards to achieve and maintain flight time training 
and readiness levels. My question to you, what are the 
consequences of that? What does it mean if you can't even meet 
the minimum level of flight hours?
    General Walters. Thank you for the question, Chairman.
    And thank you to this committee for trying to get us back 
on our RBA [ready basic aircraft] recovery in the last 2 years. 
We have made some improvement. To your question about the 
flying hours and what it means, each type model series has a 
minimum requirement. It is important to understand what that 
minimum requirement is and it is somewhere between 16 and 18 
hours per pilot per month. There is an outlier there on C-130s, 
which is about 23 hours. And what that does is keeps them 
current in their current capabilities. It does not guarantee 
that they will be proficient or they will be the A-team to 
defeat an enemy in a near-peer fight.
    If you are looking for a number, the last time I saw us 
that good was when the pilots were getting about 25 hours per 
month. And that would make them current and proficient.
    What it really means in the end is that we are sending a 
lot of these--we will send, in a major combat operation, we 
will send a lot of pilots that don't have the adequate 
training. And there is historical example after historical 
example when flight time required is not produced and the 
results in an air fight, both air to ground and air to air.
    The Chairman. Okay, so you said 16 to 18 hours per month is 
the minimum.
    General Walters. That is the minimum. And what we are 
getting now is between 12 and 14. So that is the minimum to 
maintain your currency. But currency is not nirvana for a war 
fight.
    Proficient pilots is what we are aimed for. And that is 
across every capability we have. There are certain tasks that 
you have to do them once, but doing them multiple reps and sets 
is what makes a world-class military organization.
    The Chairman. You might say it is kind of like getting 
ready to play in the Super Bowl but not being able to practice.
    General Walters. That is a very good analogy, sir.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman, and I thank each of 
the vice chiefs for their excellent testimony. Each one of you 
has revealed critical gaps in our readiness, and I hope all the 
members of this committee are listening closely.
    I want to focus particularly on what this committee and 
this Congress can do to solve some of these problems. Because I 
think you gentlemen have highlighted the problems very well.
    General Allyn said it in plain English, and let me foot-
stomp his testimony. I am going to quote here, ``The most 
important actions you can take, steps that will have both 
positive and lasting impact will be to immediately repeal the 
2011 Budget Control Act and ensure sufficient funding to train, 
man, and equip fiscal year 2017 NDAA authorized force.''
    Let me emphasize again, immediately repeal the 2011 Budget 
Control Act. The general goes on to say ``unless this is done, 
additional top-line and OCO funding,'' something that Congress 
has traditionally done, ``though nice in the short term, will 
prove unsustainable, rendering all your hard work for naught.'' 
Could there be a clearer, more dire warning to this committee?
    So I thank you, General, for offering that clear-cut, 
plain-English testimony. It is not your problem, it is our 
problem. Another of the witnesses emphasized that we have had 
nine consecutive continuing resolutions. How can anyone, even 
the ablest manager in the world, manage that? Nine consecutive 
ones.
    So my main message today is for the newer members of our 
committee, who perhaps haven't learned all the bad habits that 
some of the older members of the committee have unfortunately 
gotten used to. This is the chance for a new day, a new 
approach, to have a stronger military that is more ready for 
all the threats we face.
    And this is one of the most bipartisan committees in 
Congress, it should be, these are issues we should all be able 
to agree on. Managing our affairs responsibly. Another way to 
put this is, the worst enemy we face is ourselves. Our BCA act 
of 2011 probably poses a greater threat to our military than 
any foreign adversary, so why do we hurt ourselves? There is no 
good reason for this.
    And General Allyn said it better than I could possibly say 
it. If you would like to elaborate, General Allyn, you are 
welcome to, but again, the problem is ours, it is not yours. We 
should solve this sequestration problem.
    General Allyn. Well, I know, to reinforce your point. I was 
in the operational force when the BCA took effect and caused us 
to cancel seven combat training center rotations. And that is a 
generation of leaders that can never get that experience back 
and we cannot go back there, we cannot do that to ourselves 
again. And it is for most of our services, we are still 
climbing out of that abyss of the BCA impact, when it was 
impacted mid-year.
    So my belief is, if we can do away with BCA, if we can fund 
our services to the authorized end strength in this budget year 
and the next, you will do more good for the sustained readiness 
build of our services than you can begin to imagine.
    Mr. Cooper. Thank you, General. Let me end by just saying, 
all members of this committee should be asking leadership and 
our respective parties why we can't repeal BCA now as the 
general suggests. You will get all sorts of excuses, all sorts 
of half reasons, but none of them are good enough. Now is the 
time to take action on this, and any delay is inexcusable.
    Thank you, Mr. Chairman.
    The Chairman. At the end of last week's hearing there were 
three members who sat through the hearing, but still did not 
get a chance to ask questions. So I promised them they could go 
first today and then we will go back to regular order as we 
usually do.
    First up is the gentleman from Mississippi, Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    And first of all, I just want to say to the panel, you guys 
are warriors and heroes, not only in our eyes, but in the eyes 
of all Americans. And I know that truly you put the interest of 
this Nation first, and I thank you for that.
    That being said, I read your testimony, and I noticed you 
used a lot of military jargon. And I understand all the Army 
stuff, I don't necessarily--I know most of the Marine stuff, 
but I don't understand the air and naval.
    So today, you know, a lot of people are watching this on 
Fox News and other places so I ask, as much as you can, speak 
like a civilian or speak like someone who is not in the 
military because acronyms have a tendency of them not 
understanding what it is.
    First, I want to start with the Air, something I am 
familiar with General Wilson, or as much as I should. But I 
have Columbus Air Force Base, the home of the 14th Flying 
Training Wing, and it is located in my district. And these men 
and women train on all of our platforms in the Air Force, or 
train right there in Columbus, Mississippi, flies more sorties 
than anywhere else in the world, to my knowledge, right out of 
Columbus Air Force Base.
    But I am concerned when they leave Columbus Air Force Base. 
If they aren't getting the hours on the platform, not the 
trainer, but on the actual platform that they are going to be 
trying to fly, the adequate numbers of hours to be ready and to 
make sure that we save lives, because that is what it comes 
down to when they are not trained in saving lives, because an 
unprepared pilot can't do the job.
    Tell me, how many hours we are getting today and how that 
impacts your readiness to do our mission on the battlefield?
    General Wilson. Congressman Kelly, thanks for the question 
and, as you know, as we talked before, I commanded the 14th 
Flying Training Wing at Columbus. It is the busiest Air Force 
Base in our Air Force, flies more sorties than anybody. It does 
a fantastic job producing pilots for our Air Force. And today's 
pilots, we are not flying enough. We are not flying enough 
hours or sorties.
    So as I mentioned earlier, today's combat fighter pilots 
are flying less hours and less sorties than they were flying in 
the late 1970s. They are averaging about 10 sorties a month and 
about 14 hours a month and that is too few for the missions 
that we need to be able to fly.
    Today it is, we talk about high-spectrum or high-end 
readiness, we need to be prepared to fight any adversary. Our 
adversaries around the globe have been looking at how we fight 
and they are training and modernizing their forces. They have 
sufficient capability of fighter airplanes like ours and are 
also developing what we call fifth-generation stealth-type 
fighters, both in China and Russia.
    They, again, they have watched our fighting and they are 
preparing their forces. We need to be prepared to fight any 
adversary. We are extremely good today and are ready to fight 
in the Middle East, against violent extremists. But we need to 
be ready to fight against any adversary.
    So, we need more flying hours, but to get more flying hours 
we need more people. Today, our Air Force we bottomed out at 
311,000 people. Thanks to your help we are up to 317 at the end 
of this past fiscal year. We want to grow to 321,000 people 
here in the next coming year.
    If we do that, that brings us to about 90 percent manning. 
But as anybody knows, 90 percent manning, effective manning, 
because you always have people that are deployed or can't do 
the job or are in training, leaves you about 75 percent 
effective manning.
    We think we need to grow the Air Force----
    Mr. Kelly. Let me stop because I have another question that 
I really want to get to. Because when we talk about BCTs 
[brigade combat teams] or we talk about MEUs [Marine 
expeditionary units] or we talk about fighter wings, or the 
number of ships, or carrier groups, those things are important.
    And I think a lot of America doesn't understand, we are 
rotating the fresh equipment out of units to make combat-ready 
units and that, by doing that, it decreases the readiness of 
the future deployments. And so, have you guys in writing, I 
would ask that each of you let me know how many BCTs you need 
and what the personnel end strength that the Army needs.
    And not only that, but the number of new M-1 systems so 
that we are not rotating equipment. They used to wouldn't let 
us hotbed in the Army. When I was in there General Allyn, they 
wanted a crew on his tank because you get a familiarity with 
that piece of equipment. And we are having to hotbed everything 
that we have in the military today.
    A hotbed means, a crew uses another crew's equipment 
because it is newer and up to date. So do you guys have an idea 
what end strength you think you need to be ready to meet 
today's missions? And also, the number of equipment both in 
modernization and just replacing the old stuff.
    And if you could address that, and I will start with you, 
General Walters.
    General Walters. Yes, sir.
    The number of Marines we need in my written statement, I 
said I think we need a minimum of 194 [thousand]. But it is 
also interesting and you have hit on the point, so why are we 
hot racking the equipment, why are we moving equipment around?
    Because for 8 or 10 years, we had modernization programs in 
place to replace our old equipment but they are delivering over 
a 30-year timeframe. And we are buying them at a minimum level. 
The example for us, the prime example, is we have a 40-year-old 
amphibious vehicle and we are putting a survivable upgrade on 
it, on a third of them, because we won't deliver the other 
ones, the new ones yet.
    JLTV, I have all kinds of needs for light tactical 
vehicles, they have been around for 20 years, where we are 
buying the Joint Light Tactical Vehicle at a very shallow rate. 
It will take us 20 years to get there.
    And probably the poster child for us is the light armored 
vehicle--that is 34 years old, and because of the fiscal stress 
we have been under, we never even thought about replacing it. 
So we have an obsolescence program on there. It is not the best 
use of our money, and the Marines deserve new equipment for the 
threat.
    Mr. Kelly. Chairman, I thank you, but just to mention, OCO 
does not allow them to modernize like top-line funding, and I 
yield back, Mr. Chairman.
    The Chairman. Yes. And if others of you would like to 
respond in writing to Mr. Kelly's question that is great. We 
have got to stay reasonably on time, as Mr. Cooper said. We 
have got lots of folks on this committee.
    Mr. Carbajal.
    [The information referred to can be found in the Appendix 
on page 106.]
    Mr. Carbajal. Thank you, Chairman Thornberry.
    And thank you to all our witnesses and in particular, thank 
you for your service to our country. As a former Marine, I am 
very honored to be able to be part of this committee and to 
address you today.
    It is quite clear, from your testimonies today and from our 
previous hearings, that our military faces incredibly diverse 
threats. Some of which are well prepared for and some of which 
remain to be a work in progress.
    There is no question we must continue to maintain a strong 
military force and Congress must do its part to provide the 
necessary resources to ensure readiness. However, as all of you 
will probably agree, sequestration is not the answer.
    It will neither balance our budgets, nor improve our 
military readiness. Many, if not all of you, have indicated 
that the number-one risk to readiness is sequestration. I 
believe the question we must ask ourselves is what are we 
trying to protect as we continue to impose arbitrary cuts to 
our country's education and health systems and not take steps 
to protect our environment.
    I believe we will be left with a hollow Nation, with 
nothing more for the most superior Armed Forces to protect. I 
believe in order to develop an effective strategy, we must 
decide what our desired end state is for each of the threats 
and priorities our military leaders identify.
    And then look at what resources are needed to meet these 
desired goals. Better oversight and accountability systems must 
be put in place to ensure not only an effective, but an 
efficient military.
    I believe it is a disservice to the American people for 
Congress to be funding cost overruns. To this end, my question 
to all of you is what steps has each service taken in order to 
increase oversight and accountability to its various programs 
and operations in order to eliminate wasteful spending.
    Can you provide us with some examples of savings, savings 
your service has identified? And I say this, because it's no 
surprise to you that on occasion, there are many articles in 
the media that identify this wasteful spending,
    And yet we have so many priorities that we are being asked 
to consider. I would like to hear from each one of you, if 
possible.
    General Allyn. Thank you, Congressman. And thank you for 
your service, semper fidelis. We love the United States Marine 
Corps, too, even in the United States Army, so we appreciate 
your service.
    I would first highlight the fact that you spoke of two 
significant challenges. First of all, the threats that we face 
in this uncertain environment that we operate and the savings 
that we must continue to be pursuing as good stewards of the 
resources that you, the Congress, provide to us.
    On the first piece, the other significant challenge to us 
in addition to sequestration is continuing resolutions. 
Continuing resolutions deny us the opportunity to implement new 
programs, like the ability to upgrade our opposing force 
capability at our combat training centers as we identify 
capabilities our adversaries are using, that we are likely to 
face.
    We must train against those. We must upgrade our capability 
to do that, we cannot do that under continuing resolution 
conditions. So we would also appreciate the passage of an 
appropriations bill obviously in the very near future.
    In terms of savings, a couple of critical initiatives the 
United States Army is underway with to continue to be good 
stewards of the resources that you provide. We have a strategic 
portfolio review process that looks at all of our acquisition 
programs across all domains and identifies the highest priority 
programs and ensures that we are moving money away from those 
that are less important and funding those that we must deliver 
as fast as possible, to ensure that we can equip our forces in 
the future.
    The second thing is to ensure we achieve audit ability, 
which is a critical requirement that we must deliver to the 
Nation. And that is well underway, we have made progress year 
over year.
    We estimate we will probably still have work to do at the 
end of this year to get to full audit ability. But we are 
progressing as rapidly as we can.
    One of the programs that allows us to do that is our GFEBS 
[General Fund Enterprise Business System] software program that 
enables us to see ourselves accurately across all our funding 
systems. We need to upgrade that program, based on the findings 
of prior-year audits.
    We cannot do that in a continuing resolution environment. 
So again, a couple of points to your very accurate questions.
    The Chairman. And I hope the gentlemen will work with us on 
our acquisition reform efforts of the last 2 years and they 
will continue.
    Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you for your 
graciousness in allowing junior members a chance to participate 
and your offering of this opportunity.
    Thank you to the witnesses for your extraordinary service 
to our Nation and the extraordinary sacrifices you have each 
made.
    My question concerns cybersecurity. One of the things that 
I often hear from companies is the burden that they actually 
have to have cybersecurity. And you would never would expect 
our companies to have private defense forces against 
conventional attacks.
    But a large portion of their budgets are going to defend 
against cyber attacks. And we know that there are about 240,000 
cybersecurity jobs that are unfilled because folks don't have 
the skills. Many people in the private sector will say the best 
folks are those who have been trained either by the military or 
the government.
    And there are just not enough of them for them to come into 
the private sector. So my question for all the branches, and I 
don't know, whichever one is most relevant, is, what can we in 
Congress do to help you better prepare in training folks 
equipped in cybersecurity?
    What do you need for the military, and what do you think 
you can do to help get more trained folks who can then go into 
the private sector?
    General Allyn. I will start, Congressman, and thank you for 
that question.
    Incredibly important area for all of us operating in the 
cyber domain each and every day. I would offer that one very 
important authorization that you could provide to us is 
increased flexibility in cyber program funding.
    The adversary is moving at light speed in their attacks of 
our infrastructure and our capabilities. And we have to be able 
to develop counters and offensive capabilities at the speed of 
light. And our current systems are not designed that way.
    So authorizing some funding flexibility specifically for 
our cyber programs, so that we can be more agile, responsive, 
and capable, both on offense and defense, would be critical.
    Admiral Moran. Sir, I would add to those very important 
points that flexibility is also needed in how we manage the 
people that we have. Your point about the number of vacancies 
in the civilian market for cyber professionals and the draw 
that it takes off of the services, who do produce incredible 
talented folks in this world, is there.
    And so we are looking at every opportunity to allow for our 
sailors who are trained and experienced in this to have 
opportunities to work inside and outside the Navy. And the 
flexibility to draw between the Active and the Reserve and the 
civilian and back.
    I think that is how the Nation can solve this problem, 
because we can't keep throwing money at people to try to keep 
them in. That said, our training and the way we are organized 
has increased significantly. All of the services have invested 
a substantial amount of money in the last several years. But 
cyber is a warfare area that is also, like everything else we 
do, subject to readiness cuts. And those cuts come in the form 
of being about to upgrade from Windows X to Windows Y. And we 
have to take some cuts to those readiness accounts as well as 
all the other ones as we see a reduced top line.
    Thanks for the question.
    General Wilson. I will just add this, we have shifted in 
the Air Force from a communication-centered focus to a 
cyberspace operations focus. And I would highlight exactly what 
was mentioned earlier; there are some acquisition reforms, I 
think, that can help us to keep up with that speed that the 
industry is going with.
    As well as, we have made great progress on our civilian 
hiring and how we can do that. But I think there is more work 
to be done there. We are in a competition for talent; we need 
to bring in the best and brightest.
    We have fantastic training programs, and then we can help 
our Nation moving forward. But there is still work to be done 
in how we bring on civilians into our workforce.
    General Walters. Sir, I am with all my colleagues here. We 
need to recruit, train, and maintain that workforce. And we are 
short, and I think we are short globally. I think this is a 
problem not just that it is replicated in the military, but it 
is really for the entire country.
    Mr. Khanna. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson of South Carolina. Thank you, Chairman 
Thornberry. And thank you for your work, Mr. Chairman, with 
President Trump.
    Secretary Mattis, this issue has been raised and what a 
great team we have here with the vice chiefs, too, to work on 
the issue of readiness.
    It is very important to me. I am very grateful to be the 
chairman of the Readiness Subcommittee. It gives me the 
opportunity to work with Ranking Member Madeleine Bordallo. And 
we will be there to back you up in every way we can; to promote 
our troops, protect our country, protect military families.
    With that in mind, General Wilson, I appreciate that in 
South Carolina, we have Joint Base Charleston, Shaw Air Force 
Base, McEntire Joint National Guard Base, and North Auxiliary 
Field. Comments of concern have been raised by prior persons 
serving in the military.
    Secretary Deborah Lee James stated, quote, ``Less than half 
of our combat force is ready for a high end fight,'' end of 
quote. And also, Air Force Chief of Staff David Goldfein 
stated, ``Combat operations and reductions in our total force, 
coupled with budgetary instability and lower than planned 
funding levels have resulted in the smallest, oldest, and least 
ready forces across the full spectrum of operations in our 
history.''
    These are deeply troubling comments for American families. 
Two questions: General, have these shortfalls affected the Air 
Force's ability to generate the necessary forces to meet 
mission requirements? And secondly, do these shortages still 
exist and, if so, how does the Air Force plan to address them?
    General Wilson. Thank you, Congressman Wilson. The short 
answer is yes, these still exist. Today we find ourselves less 
than 50 percent ready across our Air Force and we have pockets 
that are below that.
    In particular, some of the bases that you have mentioned in 
South Carolina--between Shaw and McEntire and others, we find, 
again, not flying enough sorties with enough hours. We know how 
to fix this, and we did this in the late 1970s as we we dug out 
from there. We can do this again.
    It starts with, as we have talked before, stable, 
predictable funding that we can--in our case, we believe we 
need to increase our manpower to 350,000 airmen. That mans 100 
percent of the positions on our books today, and we do that 
over the next 5 to 7 years.
    While we bring on the manpower, then we can make sure we 
have got all the training behind that for this manpower. Then 
we can increase our weapons systems support so all our supports 
and our depots and our parts and our supply. On top of that, 
then we can increase our flying hours and then we can bring 
down our OPSTEMPO and we can get our readiness back.
    But we also, at the same time, have to modernize the force. 
And we are doing so. As we are bringing on F-35s, as we are 
bringing on KC-46, as we are bringing on B-21s, we need to keep 
those programs on track.
    Today we have 75 less F-35s than we planned to have in 
2012. We have 95 less MQ-9s than we planned because of 
sequestration. So today's modernization has a readiness impact 
in the future. So today's modernization is tomorrow's 
readiness.
    We need to focus on that going forward in the future. With 
those steps, we can dig out of our readiness challenges we have 
today and bring it up to full-spectrum readiness of about 80 
percent.
    Mr. Wilson of South Carolina. Thank you for your 
commitment. And General Walters, I am really grateful, South 
Carolina has a Marine Corps Air Station in Beaufort, along with 
Parris Island. We are very grateful for such extraordinary 
facilities, giving young people extraordinary opportunity to 
serve our country and achieve to their highest ability.
    But I am concerned that it was reported last year that we 
have had only 141 flyable tactical aircraft that, additionally, 
we have had accidents that have just been unprecedented. And 
from that situation of danger to our pilots and communities, 
what is the current state of Marine aviation?
    Is there a correlation between aviation mishaps and the 
ability of a ready basic aircraft and how do you plan to 
address this?
    General Walters. Sir, we are addressing the ready basic 
aircraft issue. I have been doing it for 2 years. With the help 
of Congress, we have turned. We need to get up to 589 ready 
basic aircraft; that just gives us enough to train with. We are 
not there yet, we are at 439, so we are 100 and some short.
    But we are 50 more than we were 2 years ago, so that seems 
positive. Your last question about correlation to accidents and 
ready basic aircraft--there is no direct correlation because I 
have reviewed every action we have had in the last 2 years, 
those pilots have had the adequate time.
    But I think it is an overall systemic shortfall in 
readiness in our aviation units.
    Mr. Wilson of South Carolina. Thank you all for your 
service, we appreciate it so much. Thank you.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you Mr. Chairman and thank you to all 
the witnesses for being here today.
    I appreciate the opportunity to continue to highlight the 
very serious challenges that we face. We have brought ourselves 
to this point largely by fighting two decade-long wars, paid 
for with a credit card, while deferring investments in our 
people, our equipment, and our facilities.
    This has been further strained by self-imposed fiscal 
constraints and our national security apparatus will continue 
to be hampered, without an end to across-the-board 
sequestration. In the meantime, we must continue to focus our 
resources on individual operations and maintenance accounts.
    I have a question for you, Admiral Moran, as we discussed 
yesterday in my office, there are significant readiness needs 
facing the Navy, and our ship maintenance infrastructure has 
limited capacity.
    Now the recent unfunded priorities list indicates as much 
with ship depot maintenance at the top. However, that conflicts 
with the administration that has indicated a desire to focus 
instead on construction.
    In an ideal world, the Navy would be able to modernize 
while shrinking the readiness deficit, but the reality is that 
we do not have a blank check. My question to you, Admiral, is, 
how does the Navy intend to prioritize these competing needs?
    In other words, with additional resources, will it focus on 
immediate action such as addressing deferred ship maintenance 
or aviation depot throughout, or instead on building new 
vessels?
    Admiral Moran. Ma'am, thank you for the question. If 
additional resources become available in fiscal year 2017 we 
absolutely will put that money toward ship depot maintenance, 
aircraft maintenance, cybersecurity, the things, the readiness 
shortfalls we have talked about here this morning.
    As I stated in my opening, if we don't take care of the 
foundation of the Navy, which is the 275 ships we have today, 
it doesn't do us much good to continue to buy new. So we--it is 
somewhat of a false choice to choose between the future size of 
the Navy and the current condition of the Navy. But to your 
point, the resources are where they are and if additional funds 
become available in 2017 we will absolutely put them in the 
readiness accounts.
    Ms. Bordallo. Thank you. Thank you very much, Admiral.
    And my second question is open for any of the witnesses. 
The Department of Defense has been asking for the authority to 
have another round of BRAC [base realignment and closure], for 
years, citing that manpower and excess infrastructure are a 
drain on operations and maintenance budgets and ultimately 
affecting readiness.
    So do you believe the Department needs another BRAC? And if 
a new round were authorized how would you reallocate the 
resources that are currently being used to maintain excess 
capacity?
    Any one of you? I just need one answer.
    [Laughter.]
    General Wilson. Congresswoman Bordallo. We have----
    Ms. Bordallo. My time is running out so, please----
    General Wilson [continuing]. Excess capacity in the Air 
Force. We think we have about 25 percent excess capacity at our 
bases. We think that we are, in today's budget environment, it 
makes sense to invest wisely so BRAC would help us to do smart 
investment of the bases preparing for the future.
    And we could take the money we are spending on the excess 
infrastructure and put that back into solving some of our 
fiscal problems.
    Ms. Bordallo. So, in other words, you are supporting BRAC 
closures?
    General Wilson. Yes ma'am.
    Ms. Bordallo. Anybody else have a different--yes?
    General Allyn. I will pile on. We are in a similar 
situation, depending on what size force you describe for 
490,000 soldier Active Force, which is about 25,000 more than 
we are today. We have 21 percent excess facilities to need. We 
save year over year, annually, $1 billion from the 2005 BRAC 
that took place. So it is real money, that we really need to 
reinvest into the deferred maintenance and infrastructure 
backlog that we have.
    For the Army it is $11 billion in deferred infrastructure 
sustainment, restoration, and modernization.
    Ms. Bordallo. Thank you.
    General Allyn. So it would be very helpful.
    General Wilson. I would say for the Air Force that number 
is $25 billion of money that we need to put back into our bases 
of deferred maintenance.
    Ms. Bordallo. And General?
    General Walters. Ma'am, we think we are about right, but we 
will participate in any BRAC to see if there is any savings 
with our partners.
    Ms. Bordallo. Thank you very much, and I submit the rest of 
my time to the Chairman.
    The Chairman. Chairman appreciates it. Thank you ma'am.
    Gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you Mr. Chairman, and all of you have an 
aviation component to your branch of service.
    There is a growing concern about a pilot shortage in the 
United States military, and I think that is also reflected in 
the fact that we have a growing demand in civil aviation for 
pilots.
    And so, what is your approach if you could all reflect on 
your approaches in terms of how to deal with that issue, 
whether it is a retention bonus structure, an enhancement of 
some sort?
    But also the fact is that we have got experienced pilots in 
the United States military leaving for jobs in civilian 
airlines who would probably still like to affiliate in some 
way. And so then the question is, should we shift then, some of 
those flying billets from the Active Duty to the Guard and 
Reserve?
    So maybe we will start with the United States Army and work 
our way down or up maybe.
    [Laughter.]
    Okay. You have got helicopter pilots.
    General Allyn. We are not having a problem retaining our 
helicopter pilots, so I will defer to the other services.
    Mr. Coffman. Okay, fantastic. Okay.
    Admiral Moran. We would like some of your helicopter 
pilots.
    [Laughter.]
    Sir, it is a great question and it is one we do focus on a 
lot as we manage our force. I would tell you that the thing 
that keeps pilots in our services, I speak for the Navy, but I 
am sure General Wilson would agree because we have both flown, 
is to fly. If you don't have the adequate resources of 
airplanes and money to resource flying hours, that 
dissatisfaction will show up with people walking out the door. 
We are all facing that shortage today.
    Not enough airplanes, we are not fixing them fast enough, 
we don't have the spare parts that we need. And young men and 
women are not flying nearly enough to keep the job satisfaction 
at a level that they would like.
    Mr. Coffman. So Admiral, your view is it is a morale issue 
based on the ability to give flying hours?
    Admiral Moran. It absolutely is a morale issue.
    Mr. Coffman. General Wilson.
    General Wilson. Today, we find ourselves producing about 
1,200 pilots a year, and if I add the Navy and the Marines 
together, we produce about 2,000 pilots a year. The airlines 
are hiring 4,000 pilots a year. All right, so I think this is 
bigger than just a service problem, I think this is a national 
problem that we have to be able to get at and work with 
industry on how we do that.
    Certainly, the Guard and Reserves are a big part of this. 
Certainly, the whole team on how we go forward on this. We can 
recruit lots of people to fly, we don't have a problem there. 
Retaining them is a problem. Today and for the last 5 years, 
our retention of pilots has declined. We need to keep about 65 
percent after the 10-year point. Today, we are doing less than 
half of that.
    So I would say it is a quality of life and quality of 
service. So as the admiral said, we are doing everything we can 
to improve, to reduce the additional duties, all the other 
burdens on our pilots and let them do their job and to build 
that culture that most military pilots, the warfighting culture 
ethos that you see in the squadrons, that will keep people in 
the service. But there is certainly a cultural aspect of this.
    But there is also, to improve the quality of life and 
reduce administrative burdens on our crews and let them fly.
    Mr. Coffman. Sure.
    General Wilson. But this is a national problem, it is not 
just a service problem.
    Mr. Coffman. The Guard and Reserve have pilots who have 
served on Active Duty that transfer into the Guard and Reserve 
and that are flying in civilian airlines. And so are you 
looking at all at restructuring?
    General Wilson. Absolutely. That is all part of how we are 
looking at it and we are engaging with all the corporate 
airline leaders on how do we do this together and how do we do 
this smarter. But right now we have a math problem that doesn't 
close because we produce 2,000 and the Nation needs about 
4,000.
    Mr. Coffman. General Walters.
    General Walters. Sir, fortuitous, we have a meeting with 
the Commandant tomorrow to discuss this particular issue and 
all the levers you just described; the Reserves, how we keep 
them once we get them. And I will add one more, is how long do 
we sign them up for when we sign them up.
    All those will be part of it, and we might end up having to 
pay a bonus for those select people to keep them around and to 
make it so we can get them a draw. In the end, it is their 
willingness to serve and their value that they put on service 
that I think will be the biggest magnet. I don't think we can 
dump enough money on them to keep them there just with the 
money.
    Mr. Coffman. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to all the witnesses for your excellent 
testimony this morning.
    Admiral Moran, I would like to again, go back to your very 
frank advice that we really need to focus on maintenance and 
repair in terms of just getting to meet the operational demand, 
shipbuilding, which I think is going to be an exciting year 
with the FSA [Force Structure Assessment] that came out.
    But having said that, that is a long game, and we are not 
going to see the fruits of that for 2017 action, for years to 
come. So your, you know, description about the fact that there 
is this backlog building up of work that is not getting 
performed, I was wondering if you could be a little more 
descriptive about, you know, how that looks, in terms of 
whether it is carriers or surface ships or submarines. You 
know, what is happening out there in terms of that backlog that 
is building up?
    Admiral Moran. Yes, sir, Congressman. Thanks for the 
question.
    First of all, in 2017 alone, if we do not see some kind of 
supplemental come for this fiscal year without a CR [continuing 
resolution], within a month we are going to have to shut down 
air wings, we are going to have to defer maintenance on several 
availabilities for our surface ships and submarine maintenance 
facilities. We are just flat out out of money to be able to do 
that.
    I think everyone here knows that in 2017, the Navy took a 
$5 billion cut in its top line. And if that comes to fruition, 
that is $2 billion of readiness cuts we had to take, which is 
immediately applied to the things like ship avails. So we have 
had cases in the past here, in the recent past, where we have 
had to decertify a submarine from being able to dive because we 
cannot get it into nuclear maintenance that is needed.
    The crew on the USS Albany, for example, went over 48 
months before getting out of the yard because of several 
delays, at least four different delays, because of other 
priorities. And those other priorities start with our SSBN 
force, which is our nuclear strategic deterrence submarine 
force, carriers, and then we get to SSNs [attack submarines].
    So if any of those get disrupted, a carrier goes long in 
one of our public yards, then we are going to bump things like 
our SSNs. So that crew of Albany, the CO [commanding officer] 
took over at the start of that maintenance avail, gave up 
command before the end of that maintenance avail. And the crew, 
the entire crew, did not deploy. To someone's point here 
earlier, you cannot buy back that experience.
    Mr. Courtney. Right.
    Admiral Moran. And so those are the kinds of real impacts 
we are seeing in the yards because of the shortage of resources 
and the continuing raiding of the readiness accounts in order 
to keep the rest of the Navy whole.
    Mr. Courtney. Thank you. I mean, that story about the 
Albany really resonates I think because in this room, you know, 
we have heard from Admiral Harris at PACOM [Pacific Command], 
General Scaparrotti at EUCOM [European Command], that they need 
more submarines, I mean now, and to the extent that you know, 
we are not going to build a Virginia class now because it takes 
5 years. But if we can get, you know, the Albany and the Boise 
and those others out and, you know, underway then, you know, we 
can respond to those combatant commanders.
    So let's assume, you know, we fully fund, you know, we deal 
with the resource issue and we also deal with the funding 
certainty issue which your testimony pointed out as another, 
you know, big problem. I mean, there is still I think are 
issues though, in terms of allocation of work and in the 
shipyards. I mean, in your testimony, you said for a variety of 
reasons, our shipyards are struggling to get our ships through 
maintenance periods on time.
    So again, let's assume, you know, that we take care of some 
of the resource questions. I mean, how can we, you know, deal 
with that? I mean, can we call on the private yards to help 
take on some of the work? And can Congress help with that 
process?
    Admiral Moran. Yes, sir. You are absolutely correct. 
Obviously, we try to maximize our public yard workload, but we 
try to smooth out those god-awful sand charts that we are used 
to staring at to try to smooth out the work across those yards.
    And where we need that extra capacity, we do use the 
private yards to do it. Montpelier is a good example today that 
is in EB [Electric Boat] too, for example. So we will continue 
to look at those. The problem is, the very late determination 
that we would no longer have the capacity in the public yards. 
When we turn to the private yards at that moment, it becomes a 
very expensive proposition.
    So the degree to which we can take advantage of your 
support and working with our private yards to try to drive down 
the costs, it makes it easier for us to have to surge to those 
private yards when public yards become, the capacity or the 
work exceeds the capacity because of delays that are already 
there, if that makes sense.
    Mr. Courtney. Thank you.
    I think Admiral Kevin McCoy described it as one shipyard, 
that should be our philosophy.
    Admiral Moran. Yes, sir.
    Mr. Courtney. Thank you.
    Yield back.
    The Chairman. Thank you. The story about the Albany is 
amazing.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank all of 
the witnesses for your noble service to America. Mr. Chairman, 
I have what is probably somewhat of a redundant question, but 
it seems important to emphasize.
    On March 22nd last year, Chairman of the Joint Chiefs of 
Staff General Joseph Dunford said, quote, ``Absorbing 
significant cuts of the last 5 years has resulted in our under-
investing in critical capabilities, and unless we reverse 
sequestration, we will be unable to execute the current defense 
strategy,'' close quote.
    So, General Walters, and I might ask a follow-up by General 
Allyn, if you would maybe keep the responses fairly concise. In 
your professional military opinion, is your service able to 
execute our current defense strategy with our current force 
levels?
    General Walters. Sir, if your definition of the strategy is 
to do two things simultaneously, the answer is no.
    General Allyn. And for the United States Army, as General 
Milley has testified before this committee and as have I in 
prior years, only at high risk.
    Mr. Franks. So, maybe to give you a real-world example, 
when you have talked about two scenarios. In your professional 
military opinion, at its current force level, would your 
service, and I will begin with [inaudible] again first, General 
Walters, would your service be capable of executing a Korea 
scenario while maintaining your current commitments around the 
world?
    General Walters. Sir, we would be able to execute a Korea 
scenario, but we would have to draw from other commitments in 
the world to make it on the timeline required.
    General Allyn. And likewise, for the United States Army, we 
would both draw down committed forces elsewhere as well as have 
forces arriving late to need based on current readiness levels, 
as we talked about at the outset with the chairman.
    Mr. Franks. I will broaden it to the committee, whoever 
would like to take a shot at it. With your current planned end-
strength levels, can you meet the current force planning 
construct outlined in the 2014 Quadrennial Defense Review to, 
quote, ``defeat a regional adversary and deny another aggressor 
in another region?''
    And maybe, General or Admiral Moran, maybe take a shot at 
it.
    Admiral Moran. Well, my answer would be very consistent 
with my brothers here. And that is, we will be able to employ 
our force, but at great risk to being there late and at higher 
casualties than we would expect.
    General Wilson. And I would second that.
    Mr. Franks. No disagreement on the panel?
    So final question, Mr. Chairman, and I address it to all of 
you.
    In your professional military opinions, are your respective 
services too small given current and emerging mission 
requirements?
    General Allyn. Yes, we are for the current defense planning 
guidance. Now, the Secretary of Defense has directed a new 
strategic review that could result in a revised force construct 
requirement, but we will undergo that process and provide our 
recommendations on what the size of the Army must be. But 
today, it is too small.
    Admiral Moran. I agree with General Allyn for the Navy as 
well.
    General Wilson. Same for the Air Force.
    General Walters. Same for the Marine Corps, sir.
    Mr. Franks. Well, Mr. Chairman, they say that sometimes, 
you know, there is nothing more encouraging to hear than to 
hear your own convictions fall from another's lips. But in this 
case, I think I am more alarmed by that than anything else, and 
yet, it does seem to be a consistent circumstance. And I just 
hope the committee and the country and the new administration 
is considering the responses of these gentlemen carefully.
    And with that, I would yield back. Thank you all.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you all for being here today as we have this very 
important discussion. Last week--and this has been in the 
context of a number of hearings that we have had to sort of 
discuss this global situation that we have to deal with and 
deal with appropriately and successfully. And last week this 
committee had the opportunity to hear from General Petraeus and 
John McLaughlin about some of the pressing threats and 
challenges facing our Nation. And in their testimony, I was 
struck by the focus they both placed on the shifting global 
balance of power and the need for the United States to maintain 
its technological superiority in relation to both Russia and 
China.
    And just last week, The New York Times reported on Chinese 
advances in computer science and engineering in relation to 
declining U.S. investments in these areas.
    Historically, our Nation's national labs and our FFRDCs 
[federally funded research and development centers] have led 
the way in advancing new technology for our Nation's military. 
But today, private firms, many located overseas, are 
increasingly taking the lead, making investments in those 
technologies that have both consumer and military applications. 
So they see a dual benefit to it. And robotics and artificial 
intelligence [AI] are just two examples of where the private 
sector has been increasingly successful.
    So as we are talking today about the many challenges we 
face, and much of the emphasis is on end strength and the need 
for more people, it seems to me that as we are thinking about 
how we maintain our competitive advantage, that it is not just 
about end strength, but it is about how we use cutting-edge 
technologies to leverage fiscally thoughtful investments, 
whether they be in people or other areas.
    And so, to that end, General Wilson, and this certainly 
comes as I am a Representative from Massachusetts, we have 
great labs and FFRDCs in our State that have done such great 
work, what is the Air Force doing to modernize its labs and 
defense-focused FFRDCs to make sure that we are able to keep 
the Air Force at the cutting edge of technology? And how much 
of a priority is it for you, given the many competing demands 
for investment?
    General Wilson. Congresswoman, we have investments going 
into MIT [Massachusetts Institute of Technology] Lincoln Labs 
to help improve the infrastructure there. I have been out to 
visit them, and I can tell you they are absolutely world-class. 
And there are some technologies that they are working on, you 
mentioned AI and robotics. They are also working on directed 
energy, some things that can truly change the game. So that is 
an important focus of our Air Force.
    As we modernize our force, we need to modernize smartly 
across the specific areas. And as you mentioned, industry in 
many areas is leading us in that way. So we are collaborating 
with industry, whether we work with folks like DARPA [Defense 
Advanced Research Projects Agency], our Air Force Research Lab, 
with the Strategic Capabilities Office, Dr. Roper and his team, 
all the FFRDCs and all the national labs that also are reaching 
out with all the private sector to make sure that we can stay 
up to date with them.
    I look at this as, almost like the FFRD, the FSRM, 
Facilities Restoration Modernization accounts, we have to 
invest so much today in our technology that is going to get us 
to tomorrow. Right now, our R&D [research and development] is 
about 2 percent. We need to keep it at that or even grow that 
because otherwise, our adversaries will outpace us.
    But we have a great collaboration with all the national 
labs, they are truly national treasures. We need to leverage 
those to help us stay ahead of all of our adversaries going 
forward.
    Ms. Tsongas. Well, and those national treasures don't 
remain national treasures without the significant investment 
that needs to be made in them, and I know given the constrained 
resources, I just want to be reassured that we aren't 
shortsighted and that we, in making those tough choices, we are 
not putting what we need to because technology has a long time 
line and yet it also can move very quickly, and we don't want 
to be behind the eight ball because we have just been too 
shortsighted in some of our near-term investments.
    And so to that end, also General Allyn, I wanted to ask you 
how you are prioritizing your investments. Again, Massachusetts 
has a great facility that really focuses on the soldier and how 
to best protect the soldier, to make them as ready as possible, 
but again, fully equipped and thinking thoughtfully what kind 
of investments the Army is making.
    General Allyn. Well, thank you, Congresswoman, and I am 
sorry you are missing the championship parade in Boston this 
morning.
    Ms. Tsongas. I am very sorry myself.
    General Allyn. That is a great sacrifice on your part, but 
we likewise fully leverage not only Natick Labs, as you have 
highlighted, but also MIT Lincoln Labs. I have been there in 
the last 2 months on several programs that are critical to us 
to be able to continue to dominate in the multidomain 
environment of the future. And we will continue to leverage 
both the great soldier enhancement initiatives that come from 
Natick as well as the technology that is critical.
    You highlighted the importance of technology to readiness. 
It is the right balance of capability and capacity that makes a 
ready force. And all of us are trying to ensure that we 
maintain that balance as we move forward, ma'am.
    Ms. Tsongas. Thank you.
    I yield back.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    Thank you gentlemen for being here today for this very 
important hearing and pretty sobering testimony, but I think we 
all need to hear it.
    And General Wilson I appreciate your highlighting the 
recent mission that went from Whiteman over to Libya, and we 
are so proud of them. And your testimony, it just goes right 
along with the question I wanted to ask, where you talked about 
how you feel like that our training makes us capable for Middle 
Eastern conflict but we need to have peer adversary training.
    And I know with your 35 years in the Air Force as a pilot 
and flying B-1 and your participation in Red Flag over the 
years, I wanted to ask you about the capability of that 
training exercise to meet our near-peer competitors that we are 
facing today.
    And so is the Air Force training with a fight tonight 
mentality against a high-end threat like China and Russia? And 
what I mean by this is, are you confident in the Air Force's 
ability to accurately train against a near-peer adversary? Can 
you give our young men and women a glimpse of what night one in 
Kaliningrad would look like? Can you prepare them and put their 
families' mind at ease, such that a flare-up in the South China 
Seas would look routine?
    General Wilson. Congressman Hartzler, we are putting 
significant investment into our ranges and infrastructure, 
places like Nellis Air Force Base. The Red Flag that I started 
flying with in the 1980s, we have changed it considerably in 
how we incorporate space and cyber into it, but the range 
infrastructure, the threats, the way we can replicate threats, 
hasn't improved to a significant degree, until recently; we 
have changed that.
    We have put significant investment into the range 
infrastructure to give us the right threat emitters, the right 
ability to give us a Kaliningrad-like environment with high-end 
threats and allow our crews to be able to train in that. We are 
not there yet, though, we have just started that investment to 
improve our ranges and infrastructure. But that will be 
critical going forward.
    It is also critical that we invest in our what we call 
live, virtual, constructive training because in the future, I 
am not going to have, a, the flying hours or the money to be 
able to train an F-35 pilot and give them all the training 
outdoors in the live environment. I am going to have to do some 
of that in the virtual or constructive environment.
    So we are putting money into that live, virtual, 
constructive so that our folks can be at home station and we 
can replicate a Red Flag-like environment or a high-end 
training scenario to give them the most realistic training 
possible. But it is important that we continue that investment 
of our ranges, our infrastructure, and our live, virtual, 
constructive environments going forwards.
    Mrs. Hartzler. So, if 100 was the number for feeling very, 
very confident that you would be able to go up against, that 
the training was adequate for fifth gen, zero, what would be 
the number where you feel like that we would be able to go up 
against fifth gen adversary?
    General Wilson. Well, again, if you go to one of our Red 
Flag exercises, it is absolutely fantastic training. The 
problem is, not enough people get to go to it and we don't do 
those frequently enough. So the average crew, I would say we 
would call ourselves 50 percent ready against a high-end 
threat. In certain parts of our Air Force, that number is 
considerably below that.
    So again, it takes all those resources we talked about. I 
have got to have the people, the training, the weapon systems 
support, the training ranges, the flying hours, and I have got 
to be in time to do that, to build up to high-end readiness. So 
today, we are not near where we need to be, I would say 50 
percent.
    Mrs. Hartzler. All right. Look forward to working with you 
to help get that up to 100 so everyone can meet the threats 
that we are facing.
    Thank you. I yield back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And gentlemen, thank you so much for your service. I don't 
know how many of these hearings we have gone to and it always 
comes down to more money and then somebody mentions 
sequestration and it seems to me that with the unified control 
of Congress and the administration that, if sequestration is a 
problem, then perhaps it could be solved quickly. Nonetheless, 
the money problem is likely to persist.
    A couple of questions, just to follow up on the question 
about the airmen and the pilots that are necessary. I 
understand that the Air Force is now moving to provide or to 
allow pilots that are not officers to fly certain missions. 
General Wilson, if you could comment on that briefly, and is it 
going to help solve this problem?
    General Wilson. Congressman, we think so. Let me tell you 
our efforts today. We have got the initial group of enlisted 
aviators into our RQ-4 Global Hawk program. We think over the 
next few years, we will be able to grow it so that a majority 
of the pilots in the Global Hawk will be enlisted.
    We will learn from that, we will see if we can take that 
example and do that in other areas like our MQ-9s and others, 
but that is to be determined. We think that will help alleviate 
some of the shortages right now, but it is in the first stages. 
We have got the second class in training, we only have a 
handful of enlisted operators going through that training 
program right now.
    Mr. Garamendi. I think the question really comes to this 
committee, and whether this committee and the Senate, whether 
we are going to force this faster, or not. It seems to me we 
ought to let this go in a way that is wise. Not necessarily 
slow, but at least thoughtfully done.
    The next question, if I might, General Wilson, has to do 
with, I guess we want to have everything, and we want to have 
everything now. A long discussion has ensued about the aircraft 
and about the personnel. Not much discussion about the ground 
based strategic deterrent and the multibillions that will be 
spent on that.
    The question arises in my mind, and I hope in this 
committee's mind about the necessity of rebuilding the entire 
nuclear mission; all of the bombs, all of the delivery systems, 
from naval to Air Force. General, if you could comment on this 
issue. Can we afford all of it?
    General Wilson. Congressman, I think we can. Look at the 
investment across the nuclear enterprise going forward on all 
the modernization programs. It will peak at about 5.5 percent 
of our defense budget, so it is a matter of priorities.
    Foundationally, what our Nation provides, the nuclear 
deterrent provides our Nation is incalculable. It has provided 
70-plus years of no conflict between major powers. As I look 
across the globe and the landscape that you talk about 
changing, as we see what our adversaries are doing across their 
force, we have no option other than to modernize.
    Our forces were built, many of them, in the 1960s. 
Modernized early in the 1970s, that we are still maintaining 
today. There comes a time where we have to modernize, and we 
have reached that.
    We have delayed the modernization of these programs for far 
too long. Specifically the ground based strategic deterrent. If 
we look at today's Minuteman IIIs which are put in the ground, 
actually have Minuteman I parts on them, designed in the 1950s, 
put in place in the early 1960s, Minuteman IIIs in the 1970s.
    We are now having 50-year life cycles of these missiles. 
The strategic stability that they afford our Nation, is well 
worth the cost and investment going forward. We welcome that 
discussion about the importance of a nuclear triad.
    Mr. Garamendi. I certainly think we need to have that 
discussion. We need to have that discussion in detail, and it 
is not just about the ICBMs [intercontinental ballistic 
missiles] that are in the ground, whether they need to be 
renewed.
    It is about the naval, and the new submarines, and the new 
bombs that go with the new missiles, as well as the new F-21 
long range bomber and the cruise missiles. And the question for 
all of us is a trillion dollar question over the next 25 years 
or so. With the bow wave occurring within the next 5 to 7 
years.
    And the Army needs more men and women, as does the Marine 
Corps, and you need more fighter pilots, and more aircraft, and 
the Navy needs new submarines. And another 55 ships on top of 
what you already have.
    And, where is the money? And the President is suggesting a 
tax cut of more than a trillion dollars, so we better have a 
big credit card. I think that is called the deficit.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Walters, Marine Corps Logistics [Command] based in 
Albany, Georgia, got hit pretty hard with those storms. I will 
be there this coming Friday; that is not technically my 
district, but I live about 30 minutes away from that base, and 
it is certainly important to us.
    Could you give me any estimate when that base will be back 
to fully operational status, if that has not already occurred? 
And, how and why is this particular base critical to the Marine 
Corps?
    General Walters. Congressman, thanks for the question, and 
we are tracking that daily. I know what damage has been done to 
the infrastructure. We think by the end of this week we will 
have all of that collapsed building and warehouses off, so we 
can take a look at it and analyze what damage was done to the 
equipment that was inside of it, so I can understand the full 
cost.
    In our ongoing efforts in 2017, we have identified at least 
the first cost of that. Your second question is when are we 
going to get it back full-up round. I mean, they are operating 
at a minimal capacity now on areas that weren't affected, but 
it is definitely critical.
    That is where our tanks, our amphibious vehicles, our light 
armor vehicles, and our artillery go through depot. I don't 
have an estimate for you now when that is going to start up 
again; we do other components; we only have two depots, one on 
the east coast, one on the west coast in Barstow.
    It is good that we have two, because if it is going to be a 
long period of time, we are going to have to make a decision on 
what we do out at Barstow and what we don't do at Barstow to 
take the critical things and move them out there. My preference 
would be to rapidly get Albany back up running at 100 percent.
    Mr. Scott. Would you agree that from a deployment 
standpoint it is important that we be able to deploy from both 
the east coast and the west coast.
    General Walters. Absolutely, sir. We are a global Nation.
    Mr. Scott. Yes, sir.
    General Wilson, David Goldfein in February, I will quote 
him, ``25 years of continuous combat operations and reductions 
to our total force, coupled with budget instability and lower 
than planned funding levels, have resulted in one of the 
smallest, oldest, and least ready forces across the full 
spectrum of our operations and our history.''
    Your testimony was pretty close to that. General Welsh, who 
I think is just a wonderful leader, prior to 1992 the Air Force 
procured an average of 200 fighter aircraft per year. In the 
two and a half decades since, curtailed modernization has 
resulted in the procurement of less than an average of 25 
fighters yearly. In short, the technology and capability gaps 
between America and our adversaries are closing dangerously 
fast.
    General Wilson, it is clear that there are not enough 
fighter aircraft to sustain readiness, through both pilot 
flight hours and flying aircraft, yet the Air Force is 
contemplating reducing the workforce to include the depots. Can 
you explain how that squares up?
    General Wilson. Yes, I don't believe we are planning on 
reducing depots; depots are critical to going forward in the 
future. Instead--General Welsh, Chief 20, I will also agree, is 
a remarkable airman.
    Mr. Scott. Yes, sir.
    General Wilson. A real visionary about what we need to do 
with our force. Chief 21, as you have talked about, outlined a 
problem we have at hand. We used to procure about 200 fighter 
airplanes a year; today, we are producing less than 20. That is 
why 21 of our 39 fleets of airplane are older than 27 years 
old.
    To maintain those 27-year-old airplanes takes a lot of 
work. It takes heroic efforts by lots of maintainers and, of 
course, it takes our depots. We have to actually get more out 
of our depots because each time we bring in a new airplane or 
bring in an old airplane, today, they are finding things they 
have never found before.
    Whether it be a F-16, a B-1, or C-5, they are finding 
things that they have never seen. So these are, they are real 
artisans on how they fix these airplanes. And our depots will 
be critical to success going forward.
    Mr. Scott. One last question. I represent Robins Air Force 
Base and a lot of those men and women work at Robins. And as 
you said they are very skilled and talented and without them 
our planes wouldn't be able to fly today. When can we expect 
guidance issued down to the base level on the workforce?
    General Wilson. We hope that the guidance will come out 
this week of what is exempted and categories, to allow our 
workforce to continue. As you know, we are still just digging 
out of the sequestration and the effects that that had, the 
furlough of our civilians.
    Our civilian workforce is critical, whether it be 
maintaining our planes, sustaining them, operations across our 
Air Force. Any reductions of that skilled workforce and 96 
percent of our civilians work outside of Washington, DC; they 
work in our depots and our flight lines. And so we have to be 
able to sustain those and grow our civilian workforce.
    Mr. Scott. Thank you, gentleman. Thank you for your 
service.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. And thank you to 
each of the vice chiefs for your service, your leadership, and 
your testimony today. And I also really appreciate the guidance 
that you have given to Congress so far, in repealing the Budget 
Control Act; ending this threat of sequestration; having 
budgets that are funded, and predictable, and consistent, 
instead of having continuing resolutions; and pointing out the 
real value in a base realignment and closure process, to be 
able to direct and focus resources where they are going to be 
most effective for our service members in our missions.
    And so on each of those, I would like to be part of working 
with my colleagues from both sides of the aisle, to get these 
things done. I think you made a very good case for why we need 
to do it, why we need to do it now.
    For General Allyn, the 3 of 58 brigade combat teams that 
are ready to fight tonight. I think one, it says something 
about our form of government that we would say that publicly, 
in a meeting like this, and advertise our state of preparedness 
or lack of preparedness to the rest of the world. But I 
understand, we say these kind of things to make sure that we 
are making fully informed decisions. And I hope that your 
comments spur us to take the necessary actions to reverse this 
trend and make sure that we are where we need to be.
    I am guessing that whatever analogous body to HASC [House 
Armed Services Committee] that exists in Russia, is not talking 
about these preparedness levels in Russia in a public way. But 
generally speaking, could you tell us how we compare, if you 
can in a setting like this one? Are they at 3 of 58?
    General Allyn. I have got to be be honest with you, 
Congressman. I don't have access to their unit status 
reporting. I do get ours every month; and so I have a fingertip 
feel for where we stand. The United States Army and obviously 
on behalf of the Congress, it is our responsibility to deliver 
the best readiness that we can at the funding levels that we 
have. And every commander in the field is getting after that, 
as you know, from Fort Bliss, Texas.
    I will offer, it is not all doom and gloom, you know. One 
of the biggest impacts for us, in terms of elevating our 
readiness above what it is today, is our personnel shortages. 
It is the first thing we are doing with the increased 
authorization that you have given us in the NDAA this year, is 
to fill the holes in our current formations so that they can be 
manned at a level to deploy, ready to fight; despite some of 
the medically nondeployable numbers that we have in our force. 
So we are absolutely committed to getting after that as our top 
priority.
    Mr. O'Rourke. Let me ask you another question. What do you 
need above what was authorized in fiscal year 2017 NDAA to meet 
the gaps that you highlighted today? What is a dollar amount 
that this committee should know about?
    General Allyn. Well, that work is going to happen next 
week. We got some initial guidance mid-week this week from the 
Secretary of Defense on how to approach this. As you know, from 
the memo being published publicly, the first priority is that 
which can deliver readiness immediately in 2017 and 2018.
    Then it is achieving a better balanced force; i.e., fill in 
the holes in our current formation. And then it is building the 
joint force that we need for the future. And we are 
aggressively working with OSD [Office of the Secretary of 
Defense] staff to finalize exactly what that figure will look 
like. And we will be getting that to you as quickly as we can.
    Mr. O'Rourke. Last question, and you may not have enough 
time to answer, and if not, we will take it for the record. But 
the tempo of the last 16 years of combat in Afghanistan and 
Iraq have really taken a toll, certainly on our service 
members, on their units, on their families.
    And I am really interested on where we are in moving to the 
Army Sustainable Readiness Model to replace the Army Force 
Generation model that probably was appropriate for some of our 
needs at the time, but long term, I think, is compromising 
readiness and unit cohesion.
    I know you only have 15 seconds left. If you want to answer 
for the record, I would be happy to take that.
    General Allyn. You are absolutely correct. It is a top 
priority. Army Forces Command is running a pilot now with units 
across the total force using this new model. The goal is to be 
able to sustain readiness of our forces across time regardless 
of their deployment status. And the goal is two-thirds of our 
force ready to deploy at any moment in time. And we are 
absolutely getting after that.
    Mr. O'Rourke. Thank you.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. And gentlemen, thank 
you for your service to our country and your time with us 
today. Admiral Moran, the preponderance of our current 274-ship 
Navy was constituted as a result of the Reagan era 600-ship 
Navy.
    These ships were built throughout the 1980s and 1990s. Many 
of them have reached, or are beyond, their original service 
life expectancy. In your best military judgment, are we 
building, and are we capable of building, given our shipyard 
capacity, enough ships to not only maintain this already 
hazardly low 274-ship Navy in the battle force but to also 
increase it to the 355 ships that is called for in the latest 
Force Structure Assessment?
    Admiral Moran. Congressman, thanks for the question. You 
are absolutely right that for the last couple decades, we have 
been living off the fat, if you will, of that Reagan era 
buildup. But it is coming home to roost now. Back then, we used 
to build up to five DDGs [guided missile destroyers] a year.
    Today, we are fortunate to get two to three a year. So, 
when you look at the math, it doesn't add up over time as that 
Reagan era buildup starts to decommission because they have 
reached the end of their life. And we are not building at a 
rate to replace them. We have programmed in 2017 and 2018, as 
we are beginning that program look now, to arrest the decline 
in our total numbers.
    It is why we have come down since 9/11 from 316 ships to 
275 today. We just have not been replenishing them at the same 
rate as they have been going out. So, we have taken a hard look 
at whether there is industrial capacity to not only arrest the 
decline but to start to climb back out of it.
    And there is industrial capacity to do it. We have vendors 
and subvendors though that are in short supply that we have to 
begin to have that conversation with.
    So, to General Allyn's point, once we get past this year 
and the immediate readiness needs, we are going to take a hard 
look along with the OSD to determine what the strategy calls 
for and the size and shape and function of the force, the joint 
force in the future. We are prepared and I think we can go to a 
higher ramp earlier than is currently planned, but the 
resourcing clearly is not there.
    Mr. Byrne. What effect will this low level of ships have on 
our combatant commands to safeguard and secure our economic 
shipping lanes, execute current missions, and answer the call 
should a contingent operation arise?
    Admiral Moran. Yes, sir. Today, we satisfy about 40 percent 
of the combatant commander requests for naval forces, 40 
percent. And that is why the size of the Navy we have today is 
too small. It is also why that small Navy is being driven at a 
high OPTEMPO, a higher OPTEMPO year after year.
    And, that higher OPTEMPO is driving up maintenance 
requirements, delays in shipyards, and our ability to get that 
force back at sea. So our ability to satisfy growing combatant 
commander requirements is not going to be satisfying to anyone 
in the near future unless we have a larger Navy.
    Mr. Byrne. Can you expand upon why the Navy is unique 
compared to the other services with regards to why the Navy 
should invest current readiness funds into shipbuilding and the 
impact that that has on the future readiness of the Navy?
    Admiral Moran. Yes, sir. Clearly, it takes a long time to 
build a capital ship, or any ship of the line. So, when we 
invest money in current year dollars or near year dollars it 
takes several years for that capability to deliver. So we are 
unique from that standpoint.
    The number of years it takes to deliver an aircraft carrier 
or a ballistic submarine or just a high-end destroyer is well 
beyond the FYDP [Future Years Defense Program] in many cases. 
So it has an impact over long-term readiness if we don't invest 
now.
    Mr. Byrne. Let me just say in closing, I was honored to be 
able to go to the RIMPAC [Rim of the Pacific] exercise in 
Hawaii this past summer. And not only to see our Navy at work 
but to see other navies at work. Because, there are 27, I 
think, other nations that were participating with us. And I was 
struck by the esprit de corps of the sailors that I was with.
    I was struck by their commitment to the mission. And I was 
struck by the fact that they are doing a lot more with a lot 
less. But I worry that there is a time coming when even the 
great sailors that we have got cannot continue to do more with 
whatever the dwindling number of resources that we are 
providing to them.
    And, I was struck by that quote that General Wilson gave 
from General MacArthur. That hit me very hard. I hope that we 
never, ever get to the point where we are there again. Where we 
literally have to say it is too late. I don't think it is too 
late. But, the clock is ticking and it is ticking on all of us.
    And, I hope that we will work together to rebuild all of 
our Armed Forces, and I appreciate what each of you do. And, I 
yield back, Mr. Chairman.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you, Mr. Chairman. And, I want to thank 
all of you for being here today and your thoughtful and 
certainly enlightening testimony and for your service to our 
Nation. You know, I represent a district in Nevada about a 
dozen miles from Nellis Air Force Base, home to the U.S. Air 
Force Warfare Center, the largest advanced combat training 
mission in the world.
    And, our primary mission includes testing of the Nation's 
most advanced aircraft and weapons systems, tactical air 
training, advanced training on the Nevada Test and Training 
Range. The Nevada Test and Training Range is the largest air 
and ground space available for peacetime military operations. 
And it looks very much like the Middle East. So in the 
summertime, we are not so lucky, happy about that, but it is 
good for the military. And even though we are a small State, we 
have the sixth most Active Duty Air Force personnel in the 
country.
    And one of out every 300 Nevadans is Active Duty Air Force. 
So it is very important in our community. We have touched on a 
lot of issues today, but your testimony really seems to have 
put into place and emphasized the importance of passing a 
budget, so that we can plan on your side and on the private 
side.
    So I would like to ask about uniform versus contractor. Are 
there responsibilities that contractors are doing now because 
you don't have the money in your budgets and, conversely, what 
are service members doing that contractors used to do because 
we don't have the funds on that side?
    General Wilson. Congresswoman, we have got contractors 
involved in all aspects of our organization. So today, for 
example, at Laughlin Air Force Base, one of our pilot training 
bases, all--it is contract maintenance. They are doing all of 
the flight-line maintenance.
    So we have contracted that out and our balancing of 
modernization, capacity, and readiness, we didn't have the 
funds and that is how parts of that--blue suit--used to be done 
by blue suit maintenance, now being done by contractors.
    That example would permeate across every unit in every part 
of our Air Force. It is contractors are involved in some 
aspects of how we do operations. Is it too much or too little? 
I guess I would say that that there, it is going to depend. 
There are areas that we think should be more and, in our case 
Air Force blue suit maintenance or blue suit operations.
    But we are having to rely on contractors because we don't 
have the people that we once had to be able to do that.
    Ms. Rosen. So what resources do you need for training to 
increase the people pipeline because that really, we have 
maintenance, we have equipment, but without the people and the 
training to do it. So what resources do you need to improve the 
people on both ends?
    General Wilson. Well, we have the infrastructure to be able 
to access and train the right people. We need the 
authorizations for the people and the funding that goes with it 
to be able to do that.
    Ms. Rosen. Thank you. I yield back my time.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us today, and thanks again for your 
service.
    Admiral Moran, I would like to begin with you and ask you 
to elaborate on the backlog of maintenance that we are seeing 
within the Navy. And I am going to go right to our aircraft 
carriers. As you know, the CNO has said he wants to stay on 7-
month deployment schedules, there have been delays of CVNs 
[aircraft carriers] getting to the yard.
    When that happens, it also has an impact on maintenance 
availabilities and, therefore, deployment schedules, training 
schedules, and now we are seeing that reverberate down to our 
SSN, our attack submarines, because all of this work on our 
nuclear ships, as you know, has to be done at our public 
shipyards.
    Give me your perspective in several ways. First of all, we 
are now seeing the impact on SSNs, with the USS Boise now being 
tied up at the dock, one of our active attack submarines tied 
up at the dock for 2 years before maintenance will begin.
    And, again, that takes a while before she gets back to the 
fleet, and another five getting ready to be tied up at the 
dock, awaiting maintenance. Again, for that 2-year period 
before the first work gets done.
    You have that; you have carrier gaps now in the Persian 
Gulf. You are seeing that start to back up with carriers going 
to the yards and then, not just maintenance availability 
backups but then, that affects training schedules.
    I want to ask you this. Are you going to change deployment 
schedules? Lengthen them from 7 months? Will training times, 
pre-deployment workups, will they get shortened? How are you 
going to deal with this to make sure that all these ships get 
to the yard, get maintained, get back to the fleet? If we are 
going to get to 355 ships, we have got to do all possible to 
maintain the ships that we have.
    Admiral Moran. Congressman, thanks for your question. It is 
a very complex answer. I will try to keep it simple.
    Mr. Wittman. Okay. Okay.
    Admiral Moran. When we hit sequestration and furlough back 
in 2013, we saw several of our civilian sailors in our yards 
leave who were eligible for retirement, eligible to move on 
just because they were tired of dealing with this kind of 
uncertainty. In the years since then, when we have been able to 
hire back, we have hired back in numbers that are fairly 
substantial, but they are young, they are inexperienced.
    And so today, in our public shipyards, roughly 50 percent 
of our civilian workforce there has less than 5 years 
experience. We are talking operating or maintaining nuclear-
capable ships. That is not necessarily a good place to be. What 
happens with something like that is take [USS George H.W.] Bush 
for example. Bush just came out late, 141 days from its 
availability--141 days which delayed its ability to get on 
deployment to relieve the Eisenhower.
    CNO has maintained and will try to maintain to the best of 
our ability the 7-month deployments and take risk by gapping in 
certain parts of the globe, in order to get Ike back here to 
get her started on her upkeep. Bush was late for a lot of 
reasons. One was the junior nature of the workforce. We had 
upwards of 70 percent of rework on Bush throughout that 13-
month maintenance period.
    So until the workforce gains that experience, we are going 
to continue to see rework issues. There are training issues 
involved, but we are starting to see some nice turnaround in 
the public yards along those lines.
    But again, until we see that workforce mature, performance 
in the yards continues to improve. And then the timelines that 
we put our ships in maintenance begin to shrink back to what is 
planned and can be executed. We are going to continue to see 
these problems.
    So when a carrier gets delayed, to your point, when a 
carrier gets delayed like Bush for 141 days, that bumps an SSN. 
So that workforce cannot go over and work on a Boise, so the 
Boise is delayed and delayed. Now she is 2 years delayed. I 
used the example earlier of Albany that got delayed for 48 
months before it came out.
    An entire crew lost proficiency and experience on that sub. 
We have the same concerns about Boise, we have the same 
concerns about Montpelier which we put in a public yard just to 
try to offload some of this workload.
    So there are huge impacts to the place we are at on the 
maintenance front. In the public yards, we are trying to spread 
it with the private as best we can but it is just going to take 
time and resources, as has been highlighted here.
    Mr. Wittman. Very quickly, what can you do to mitigate this 
backlog? Because the backlog is only going to grow. You can't 
gain back time, you can't gain back workforce experience to be 
able to accelerate that. I mean, you can hire up in the yards 
but you are still hiring new people so the proficiency there is 
not going to be there. How do you gain that back?
    Admiral Moran. Yes sir. I can answer that for the record. 
Quickly, though, it is by sticking to the deployment lengths 
that we have so we don't wear out the equipment so much that 
when it gets back in the yards, it has got to go for longer 
periods of time.
    [The information referred to can be found in the Appendix 
on page 105.]
    Mr. Wittman. Very good. Thank you. Mr. Chairman, I yield 
back.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thanks, Mr. Chairman. Admiral Moran, you 
mentioned in your testimony about, discussed aviation 
readiness. I note that you are a CO [commanding officer] VP 
[Patrol Squadron] 46 and then we moved on to P-8s. They are 
relatively new, the Growlers are Super Hornet derivatives, they 
are fairly new. So what class of aviation in the Navy is really 
a focus for readiness and maintenance?
    Admiral Moran. The focus right now is clearly with our 
partners in Marine Corps on our legacy Hornet fleet and the 
beginning bow wave of Super Hornets who we are flying harder 
and more often than we would have because of the issues in the 
legacy fleet. So, it is a two-fer. The strike fighter community 
is definitely the focus of our energy right now.
    Mr. Larsen. General Walters, do you want to comment on 
that?
    General Walters. Sir, it is our focus also, our biggest 
challenge, and I would throw in our 53Ks, our old heavy-lift 
helicopters, and our V-22s by capacity, those are all the three 
priorities for us, sir.
    Mr. Larsen. Those were the focuses, great.
    Admiral Moran, back to you on an issue regarding the 
Growlers and the OBOGS [on-board oxygen generation systems] 
problem. Can you, so I understand that physiological event [PE] 
teams is investigating a variety of solutions for the OBOGS 
issue. Two things: Can you update us on that, where they are? 
And second, do you envision that if there is a supplemental 
that comes to us that money to further research or try to get 
to a solution faster will be part of that?
    Admiral Moran. Yes, sir. First of all, on the Growler 
issue, that was a maintenance procedural issue. We have fixed 
that, we do not have a problem with the Growlers today. The 
physiological events you are referring to are both--and they 
are different. One for the legacy Hornet fleet and one the 
Super Hornet fleet, and I am happy to pass you where we are 
with that.
    We have not found the smoking gun to that. It is very 
complicated and we have taken a Hornet and torn it down to 
parade rest. In other words, we have taken it all the way down 
to as if we were going to build it from scratch to try to piece 
it together to see where these events are coming from so that 
we can more accurately put an engineering solution to it.
    In the meantime, we have put a lot of mitigators out there 
in terms of how we have provided our pilots watches and what we 
call slam sticks so we can verify and validate the events 
actually occurred and then give us a better indication of what 
we do about it. And we have also put decompression chambers, 
portable decompression chambers, on our deployed carriers so 
that if we do have an event, we don't take any added risk for 
our pilots going through any kind of physiological event.
    Mr. Larsen. Yes, I don't want to get into the details or 
contradict you too much but my understanding is the PE rate on 
Growlers is going down, but we did see an upturn again last 
year so maybe we can send some folks over, we can get that----
    Admiral Moran. Yes sir, absolutely.
    Mr. Larsen [continuing]. Inconsistency settled? That would 
be great since Naval Air Station Whidbey Island, home to the 
Growlers there. I will just pick one of the services rather 
than have all of you discuss it, maybe the Air Force on 
building and rebuilding the force.
    This is really more on the building the force and the area 
of cybersecurity because we are really not rebuilding forces 
there, we are trying to build up the cadre. So how do you 
envision that balance between say an Active Duty, Reserve, or 
National Guard, and use of private sector? In the personnel 
side.
    General Wilson. Sure, we would use all of it. I will use an 
example, recently we had a guardsman in California who went to 
cyber training for the Air Force. He also happened to be CEO 
[chief executive officer] of a cyber company. So we need to be 
able to tailor the continuum of training for the people and we 
see across our both Guard and Reserves, they have got some 
really skilled people in the cyber area, that they don't need 
to do a cookie-cutter type training for somebody newly 
accessing in.
    Mr. Larsen. So do you have the flexibility in personnel 
systems in the Air Force to be able to do that? Or do you feel 
stuck at all?
    General Wilson. We are working through, I wouldn't say it 
is perfect, but we are working through that to be able to 
provide that flexibility across, and specifically 
cybersecurity. And as General Allyn talked about today, as we 
look at what is happening in the world of software and how fast 
it is moving, we can't do acquisition speed to be able to do 
current acquisition speed.
    So we are going to have to change that whole paradigm, as 
well as the people and how we train them. So actually next 
month, we are having a big huddle at the Corona session to talk 
through just this subject on this continuation of training and 
how we develop our corps across all the Active, Guard, and 
Reserve.
    Mr. Larsen. And for all the services, I will follow up with 
all of you on that question about flexibility of personnel 
systems to address that.
    Thanks.
    Thanks, Mr. Chairman.
    The Chairman. That is a good question.
    Dr. DesJarlais.
    Dr. DesJarlais. I thank the chairman.
    I thank all of you for being here today and answering our 
questions.
    This can be for whoever wants to take it, but how have 
readiness shortfalls impacted operations with allies? In other 
words, related to joint exercise, defense cooperation 
agreements, and what our allies expect from our military on an 
international stage?
    General Allyn. Well, I will start, and give these guys a 
break. You have been wearing out the Navy and the Air Force 
here the last few minutes.
    But we have had incredible opportunities to assure our 
allies, strengthen the capability and capacity of our allies, 
as well as increase the deterrent posture both in Europe and in 
the Pacific, with exercise series that have been invaluable at 
a time when the capacity of each of these nations to be both a 
stable force in their own countries, as well as contribute to 
regional solutions is part of how we deal with the extant 
threats that are there with a smaller military here in the 
United States.
    And I will just highlight some of the work underway in 
Eastern Europe to strengthen that deterrent posture. We 
recently deployed 3rd Brigade, 4th Infantry Division that will 
start our heel-to-toe rotations of a constant armor brigade 
combat team presence in Eastern Europe. They began off-loading 
ships just about 30 days ago. Within 14 days, they were on 
gunnery ranges and beginning to work with their Polish 
counterparts in the Zagan region of Poland.
    And today, elements of that unit are already forward in 
Estonia as a clear signature of our commitment to our NATO 
[North Atlantic Treaty Organization] alliance and our ability 
to strengthen the capacity of the Baltic nations to deal with 
the instability that has been created with the aggression that 
Russia has exercised here in the last several years.
    So, those are critical commitments. We could not have done 
it without the increased ERI [European Reassurance Initiative] 
funding that you provided us. And that funding is going to be 
critical in 2018 as well.
    Dr. DesJarlais. Okay.
    I guess, I mean, that is good to hear, but are there any 
rumblings in terms of our allies having concerns? What we are 
hearing today about our lack of readiness, does that give them 
trepidation as far as our ability to step up and honor our 
agreements?
    General Allyn. Well, I will first say for the Army, 
whenever we send a unit anywhere to meet a mission, they are 
trained and ready when they arrive. So, no, they are not seeing 
this. What we are trying to describe to you is the readiness 
impact for the forces on the bench that should be ready to go 
for the unforeseen contingency.
    Dr. DesJarlais. Okay. Let's talk a little bit about what 
may be the most important topic of today, and that is our 
military men and women, and what impact this readiness 
shortfall has on the personnel emotionally. I think anyone who 
signs up for any of the branches of the military understand the 
sacrifices they are going to make. They know they are going to 
miss Christmases, birthdays, anniversaries, T-ball games, 
basketball games, things like that. I mean, I don't think they 
go in there not knowing that.
    But with the high OPSTEMPO of our smaller force, what is 
the impact on our staff sergeants and the morale of our troops?
    General Allyn. Well, I will start, then I will pass to my 
Marine brother, because it is something that we absolutely keep 
a pulse-check on each and every day. The sergeant major of the 
Army travels across the Army every week to assess exactly the 
morale of our force and our ability to sustain this incredible 
All-Volunteer Force that we have built in the United States.
    And it is very inspiring to see the sustained commitment 
that our soldiers have. And I will just give you one current 
example. You know, as part of this building toward the 
authorized strength that you have given us in this year's NDAA, 
we have to build about, you know, 28,000 additional soldiers in 
the total force.
    You know, within the first month of that effort, we had 
2,500 soldiers raise their hand and say, hey, I want to 
continue to serve. You know, because the best way we deliver 
this capability at best dollar is to retain those that have 
already been trained and keep them in the force. And they are 
stepping up and saying, hey, I want to stay on this team.
    And we find that to be very encouraging.
    General Walters. Sir, I just have a little bit of time. We 
are watching exactly what you are asking about. We see no issue 
with reenlistments after the first term of enlistment. I think 
we will make our goal. But for the first time in this year, our 
challenge from getting that staff sergeant to reenlist right 
now, we are going to have to reenlist 87 percent of our 
remaining cohort to make our goal. And that might be 
challenging. So we are looking at incentives to that. That 
might be a leading indicator of the phenomenon you were 
describing, is that we are starting to feel a little stressed.
    Dr. DesJarlais. I know I speak for all of us here, our 
gratitude and appreciation for all you do and all our service 
men and women do is immense, and we greatly appreciate it. So 
thank you.
    The Chairman. Mrs. Murphy.
    Mrs. Murphy. Gentlemen, thank you for being here and for 
your testimony today.
    I have two questions that I will ask in succession, and 
then leave you with the remainder of my allotted time to answer 
it.
    Admiral Moran, in January of 2016, the Navy put out a 
document called ``A Design for Maintaining Maritime 
Superiority'' which intends to guide the Navy's behavior in 
investments going forward. And it is built around four lines of 
effort: warfighting, learning faster, strengthening the Navy 
team, and building partnerships.
    And within the warfighting line of effort, the document 
notes the importance of developing concepts and capabilities to 
provide a range of options to national leaders. And then 
testing and refining those concepts through focused wargaming, 
modeling, and simulations.
    Also within the learning faster line of effort, there is a 
stated desire to expand the use of learning-centered 
technologies, simulation, and online gaming.
    I represent Florida's Seventh District, which includes 
Naval Support Activity Orlando, which is home to a variety of 
government, private sector, and academic organizations, many of 
which specialize in high-tech R&D, modeling, and simulation, 
and are known collectively as Team Orlando.
    Could you describe what investments the Navy will be making 
in support of modeling and simulation in the fiscal year 2018 
budget request, as well as in future budget requests?
    And to the other services, could you describe how modeling 
and simulation fits into your service training and readiness 
strategy?
    And then how do we ensure that the military services are 
acquiring state-of-the-art training equipment before that 
equipment becomes anything less than state of the art? Put 
another way, is there a mismatch between the time it takes to 
acquire this modeling and simulation technology, and the rapid 
pace at which the technology is evolving?
    And then my second line of questioning involves a recent 
article I read about an Associated Press examination into the 
effectiveness of DOD's [Department of Defense's] program run 
out of CENTCOM [Central Command] to counter the online 
propaganda of ISIL [Islamic State of Iraq and the Levant].
    The investigation raised questions about whether DOD 
employees and contractors are sufficiently skilled in Arabic 
and adequately knowledgeable about Islam to serve as an 
effective counterweight to online recruiters seeking to 
radicalize young men and women throughout the Arab and Muslim 
world.
    Given the importance of this effort, what can we do to 
improve this?
    Admiral Moran. Congresswoman, I will start. I will tackle 
the training piece here. I think I can speak for most everybody 
at the table. All of us are incredibly interested in this 
technology. Team Orlando is Army team, Navy team, Disney team, 
and the colleges and universities of that area. And they are 
terrific. I have been down there probably a half-dozen times in 
the last 2 years.
    The technology maturation that is finally coming to meet 
its promise is there. And we are purposefully investing in that 
technology to try to take traditional paths of training out of 
schoolhouses, brick and mortar, and bring it to what we would 
call to the fleet, to the pier, to the flight line where 
sailors are working on their gear, learning new gear, and being 
able to turn around training faster on their schedule, when 
they learn at the right time.
    And that is what the technology really brings is an ability 
for this generation to learn on equipment that they are used to 
seeing as they are growing up. So, we are the ones that have to 
mature our own, our training programs, so that is actively 
going on.
    You heard earlier General Wilson talk about live, virtual, 
constructive. That is also a key component because all of our 
weapons systems, the ranges in which we operate this gear now 
is extended well beyond the reach of some of our ranges out 
there. So this technology can bring that in closer.
    So to give others time to talk, I would leave it with you 
there. Everybody, especially on our side, we are actively 
investing because it is going to save us money in the long 
haul. Thank you.
    General Allyn. And I will just pile on, given that he 
highlighted the teamwork we have there in Orlando. Modeling and 
simulation, live, virtual, constructive, is basically the 
practice time that we spend hitting the sled before we ever 
take the field, right, for collective training. It is 
absolutely critical, particularly for our leaders so that they 
get repetitions before you put the blood, sweat, and tears of 
our soldiers at risk in a venue that they may not be fully 
rehearsed in. So it is absolutely critical.
    And I will cite one example. We are pursuing an upgrade to 
the Stryker vehicle, specifically to deal with a capability gap 
in Eastern Europe. And in stride with fielding that new 
hardware, the new weapons platform, we are also pursuing a 
simulation trainer to enable us to get the repetitions on that 
combat vehicle before we ever roll it to the field.
    So it is done in stride. You talked about our ability to 
keep up with the rapid pace of modernization in modeling and 
simulation. Ours is less a problem with the capacity to do it 
than it is the funding.
    Like everything else, we have had to stretch out those 
program portfolios beyond what any of us are comfortable with, 
within the funding constraints that we have.
    The Chairman. Time of the gentlelady is expired.
    Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman.
    And thank you gentlemen for being here and for the men and 
women behind you and all those that wear the uniform, thanks 
for letting us sleep soundly at night and raising our children 
and grandchildren in a safe environment.
    Mr. Chairman, this committee knows the value of the B-52 
bomber fleet. We in Louisiana are fortunate to have Barksdale, 
Fort Polk, the joint air base at Belle Chasse. The communities 
are very supportive.
    But this B-52 is 60 years old, expected to fly until 2050. 
And it has both nuclear and conventional missions that it is 
expected to fly.
    The Air Force, General Wilson, is considering a proposal to 
replace the engines on the B-52s and it is my understanding 
that if we re-engine these B-52s that it will increase their 
range by 30 percent, will increase their loitering time by 150 
percent.
    And Mr. Chairman, I do have some slides that I would ask to 
be presented in the record. But just for future.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Without objection.
    Dr. Abraham. And these major re-engine re-toolings have 
what I have seen, wonderful cost benefits and increases 
longevity, lowers maintenance cost. What is your take on this, 
General Wilson?
    And in particular, would you describe the proposal to pay 
for these engines with the third party and what is your take on 
that?
    General Wilson. Thanks for the question, I am intimately 
familiar with this proposal. I think it makes great sense in a 
couple of different areas. Operationally, as you pointed out, 
it makes great sense in terms of it increases both the range 
and the loiter capability of the B-52.
    From a business case, it seems to make sense. We say 
today's technology of engines will give you about a 30 percent 
efficiency than we had on the current TF33 engine. So it is 
more efficient in terms of it costs less, in terms to fly it.
    It costs less in terms of people because its current 
technology will put an engine on a wing and they won't take it 
off for 10,000 hours. There is a lot of manpower savings and 
time savings in keeping those engines updated and upgraded and 
running on the wing.
    So to me, it makes great sense. The question is, how do we 
pay for it. If we had it in our budget, we would buy it. But we 
don't have it so we looked at you know, there are creative ways 
we can do this through third-party financing and teams 
exploring just that and to see if it makes a business case 
through a third party to do it.
    But ultimately, I would say if we had the money, we would 
do it.
    Dr. Abraham. Does the Air Force support the third party----
    General Wilson. I haven't seen the specifics in the third 
party back on how we will do that. We have a team in the 
Pentagon who are working that right now, with the third-party 
finance folks to see how we would bring that forward.
    Dr. Abraham. Okay, thank you and one other question for 
you, General Wilson. Let me switch lanes. I want to get your 
thoughts on the service life extension of the F-15.
    Where is that going, how is it being put out there? Is it 
going to work?
    General Wilson. We don't know. We are going to do some 
modernization to our fourth generation fighters, we have to, 
whether it be new radars or new equipment on it. Our F-15s are 
going to reach a point in the future where structurally, it is 
going to cost too much to maintain them and we are looking for 
options to see how do we maintain or what are some other 
options to ensure we have the capacity of a fourth generation 
fighter fleet going forward.
    Dr. Abraham. Yes, I am just afraid if we don't do 
something, we have got this critical gap that we have all 
alluded to this morning. And as we all know, the Active, Guard, 
Reserve, everybody depends on this F-15 aircraft as a strike 
fighter. I thank you.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you, for your extraordinary service to our country 
and to each and every one of you. General Petraeus was here 
last week and 6 months ago, in The Wall Street Journal, he 
penned an op-ed in which he said, there is no crisis in 
military readiness.
    In fact, he said, the current national defense budget of 
over $600 billion a year far exceeds the Cold War average of 
about $525 billion adjusted for inflation. Assuming no return 
to sequestration has occurred in 2013, the Pentagon budgets to 
buy equipment now exceeds $100 billion a year, a healthy and 
sustainable level. The so-called procurement holiday of the 
1990s and early 2000s is over.
    So on the one hand, you are making statements about 
readiness. I realize that General Petraeus is no longer in 
service. But he suggests that we have enough money.
    What would be your comment to that, General Allyn?
    General Allyn. Thank you, Congresswoman Speier, for the 
opportunity to answer a great question. And I can only say the 
facts as they affect the United States Army. Our modernization 
budget, which is how we build future readiness against the 
forces we will face in the future, is 50 percent of what it was 
in 2009.
    In fiscal year 2017, it is $24.8 billion. It was $45.5 
billion in 2009. So what that means is, we have significantly 
attrited the building of future readiness against the likely 
threats that we will face.
    And in terms of near-term readiness, there is a significant 
challenge in meeting not only the current operational tempo 
with training ready forces, but having sufficient forces ready 
to deploy in the event of an unforeseen contingency. That is 
what we owe the country.
    Ms. Speier. So you dispute what General Petraeus says?
    General Allyn. They don't match the facts, as I see them, 
affecting the United States Army's readiness.
    Ms. Speier. All right. I think maybe more than one of you 
referenced the base inventory surplus of some 25 percent which 
is a mind-boggling number. For each of you, would you tell us 
what that means in costs we are putting out for surplus spaces?
    General Wilson. I will start with part of it. So today, we 
maintain our facilities at a rate of 1.5 percent of 
recapitalization. So said in another way, it takes 129 years to 
recapitalize our bases.
    We have a $25 billion backlog of modernization projects 
across our bases. We could smartly reduce the infrastructure, 
target where it would be needed going forward, and be able to 
invest that money into future facilities.
    Today, in terms of MILCON construction at our bases, we 
only fund a new mission or those that directly support the 
COCOM, combatant commanders', needs. We have lots of places, 
whether it be dorms or childcare education centers, gymnasiums 
that are not where they need to be in terms of facilities. But 
yet, we maintain those facilities across too many bases. And we 
think we can reduce some of that. The largest BRAC in the past 
has reduced infrastructure about 5 percent.
    We think it is worth looking at, be able to target the 
investment to put elsewhere in these challenging budget 
conditions.
    Ms. Speier. So I would like to work with you on this. I 
mean, this is a hot potato for this committee. No one wants to 
see bases close. But we have a certain pot of money and we have 
got to use it smartly.
    And we are spending more money than China and Russia 
combined on our military. And I would suggest that there has 
got to be a smarter way that we spend it. So I would look 
forward to working with you on that.
    A question about women in combat positions. A 3-year study 
has opened up about 213,000 positions to women in combat if 
they meet the standards. It appears and we are hearing 
rumblings that the administration now, through Secretary Mattis 
and Chairman Dunford, are talking about reviewing, revising, or 
repealing this policy.
    I would like your comments on that. Do you know about any 
efforts to do that and doesn't that kind of fly in the face of 
having the ready workforce we need, if you are excluding women 
who are capable to engage in combat?
    General Allyn. There has been no conversation in the 
Pentagon about reviewing, revising the commitment that has been 
made to gender integration. And we are all achieving higher 
levels of readiness, now that we are opening it up to 100 
percent of the population of America to be able to contribute.
    Ms. Speier. If the rest of you could just respond for the 
record, thank you.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. If the gentlelady from Arizona will permit 
me, I wanted to give the other witnesses a chance to answer Ms. 
Speier's first question. And that is, are we spending enough 
money?
    General Allyn compared what we are doing now with what we 
were doing in 2009. But how would the other three of you 
respond to her question.
    Admiral.
    Admiral Moran. Well, I completely agree with how General 
Allyn described his answer, which was the facts speak largely 
towards a Navy that is too small, and that size has caused us 
to be less ready because we are driving the small force harder 
than we ever have.
    And if that continues, we are eventually going to spiral 
down where we don't have enough ships to operate in the parts 
of the world where the Nation expects us to be. So we are on a 
clear path to not having enough capacity to answer the call, 
anywhere in the world.
    General Wilson. Chairman, I would say the same thing for 
the Air Force. We are too small for what the Nation requires of 
our Air Force. We are fully ready and have shown repeatedly 
that we can fight today's fight against a violent extremist 
organization.
    Against a high-end adversary, we lack the capacity and the 
numbers that are full-spectrum ready to be able to perform 
without significant risk against a high-end adversary. So I 
would disagree with General Petraeus and say that we are ready 
today.
    General Walters. And Congresswoman, General Petraeus is one 
of our best military minds. What I don't know what was in the 
editorial, I haven't read it, but you threw two numbers out, 
525 with constant year dollars, $600 billion this year in a 
defense budget.
    I don't know what year the Cold War was, but there were a 
few things that happened during the Cold War; one was that we 
went to an All-Volunteer Force. You know, so it is true that we 
spend more money on our enlisted and officers now, than we did 
in the Cold War.
    So I would have to dig through that. So I can't make a 
comparison. If that is the gross level of comparison, a hundred 
billion in modernization, you know, we used to modernize at 
about $4 billion a year a decade ago.
    We just crested the $1.5 billion mark per year. That is all 
we spend out of a $24 billion budget. It is about 7 percent. It 
ought to be about 50 percent, I don't know any large 
organization that does not recapitalize its capital 
infrastructure at less than a 15 percent annum rate.
    So there is an apples and apples here, somewhere. But I 
think the discussion is an apples and oranges right now, ma'am.
    The Chairman. Well, and fair point, we don't know the 
context. But I just thought everybody ought to have a chance to 
answer the general question. I appreciate the gentlelady's 
patience.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    General Wilson, your testimony in the discussion today 
about pilot shortage and readiness, has been very important. I 
remember as a young officer, us making fun of our Soviet 
counterparts who didn't have the money to get the training 
hours so that they were practicing their maneuvers on sticks.
    Now, it seems like we are in this situation where our guys 
and gals are not flying what they need in order to stay ready. 
So we have heard a lot about that today, but can you compare 
with what we know about how that compares to Russia and China 
and what their pilots are getting?
    General Wilson. I can't specifically speak on what Russia 
and China are doing. I would say that today, in our combat air 
forces, we are flying less hours and sorties than we were at 
the bottom of the hollow force in the late 1970s. And we need 
to turn that around.
    Ms. McSally. Is it possible to hear back, for the record, 
what we know of the assessment or from appropriate agencies on 
the comparison? Because that is obviously of deep concern to 
us.
    General Wilson. We will do that.
    [The information referred to can be found in the Appendix 
on page 105.]
    Ms. McSally. Additionally, the fighter pilot shortage we 
are very aware of, I have good friends that are moving out. 
There is push/pull factors, as you know, morale and mission 
focus and the ability to do their job in the military. Plus, 
the airlines are hiring. We have got the numbers on the record.
    Are there creative solutions being discussed, where it is 
not just a win-lose between us and the airlines, but a win-win 
to include leaves of absence or graybeard programs or those 
that--I know many who left for the airlines and they would love 
to come back for maybe 2 or 3 years and be a part of the 
mission again, but then, you know, be able to go back. What 
sort of creative solutions are you discussing? So this isn't 
just a one, small pie being in a win-lose situation.
    General Wilson. Congresswoman, that is exactly what we are 
looking at. We are looking at any and all those options to make 
this a win-win. As we mentioned earlier, the airlines are 
hiring 4,000 a year. We are producing amongst all three of us, 
about 2,000 a year. So we have got to find creative ways to do 
it differently.
    Whether people can take leave of absences and come back, 
whether we can seamlessly transition between Active, Guard, 
Reserve, civilian airlines and be able to do that, we are 
looking at any and all options.
    Ms. McSally. Great, thanks. And similarly, on the 
maintenance front, we have got 3,500 short maintenance. But 
while you were downsizing, you pushed thousands of maintenance 
guys out. Some of them didn't want to leave.
    Are we reaching back to them, instead of having to train 
new people out of basic training, bring back those who left at 
6 years, 10 years, 12 years, give them the option to come back 
in so that we are bringing that experience back.
    General Wilson. Yes, ma'am and that is being looked at, 
also.
    Ms. McSally. Great, thank you.
    General Allyn, Fort Huachuca is in my district. A lot of 
discussion today about readiness of the conventional force 
brigade combat teams which are important. But we also have 
asymmetrical capabilities, like electronic warfare [EW], intel, 
others.
    Can you talk about our readiness, specifically of EW, say, 
and some of these other asymmetrical areas that don't get the 
same amount of attention?
    General Allyn. Well, thank you, ma'am, and they are getting 
significant amount of attention from us. We recognize the 
capability gap that we have, particularly in electronic 
warfare, in cyber, and across the electromagnetic spectrum.
    And we have a number of projects underway, both to address 
the high-technology gaps that exist for the long-term and 
fielding capabilities that enable us to operate more 
effectively, both offensively and defensively. As well as 
operations at the brigade level and below, which is the most 
pressing current gap we have, tactically.
    As you know, the Russians employ this capability in an 
integrated manner inside very tactical-sized units. We have 
historically kept that at echelons above division. And so we 
are looking at how to better integrate this capability to 
enable us to dominate, if necessary, against near-peer 
competitors, where we know that we will face a very congested 
cyberspace environment.
    Ms. McSally. Great, thanks.
    General Wilson, back to you. In some of the discussions I 
have had with those that are still Active Duty, the squadron I 
commanded had 24 aircraft assigned, most of them are down to 
18. But we are deploying 12, usually, is the model.
    Those that stay behind are having a hard time, you know, 
doing a two-turn-two, sorry to get so specific, here. But 
looking at it from my experience, it seems like that may be 
exacerbating some of the readiness challenges for the small 
package that is left behind.
    Are you looking at plussing up to 24 PAA [primary aircraft 
authorization] in order to have a better balance to address 
some of these readiness issues?
    General Wilson. We are looking at how we get the right 
force presentation construct to go forward, what the size of 
the squadrons are. Generally, the chief of staff has got three 
big efforts underway.
    One is reinvigorating the squadron to bring--that is where 
the warfighting happens, that is where the culture happens, 
that is how we build and maintain our Air Force. So across the 
Air Force, that is one of the main efforts.
    The next one is, how do we build joint leaders and teams 
going forward in the future. And the third one is on 
multidomain command and control. All three efforts are really 
important. As one of those, there will be a force sizing 
construct of what should a squadron look like in the future?
    Ms. McSally. Great. And you know, if you need any retired 
Hog drivers to come back and fly a little bit on the weekends, 
I am happy to volunteer.
    All right, thank you Mr. Chairman. I yield back.
    The Chairman. Oh, we might have to put a stop to that.
    Gentleman from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our witnesses for your testimony today, 
most especially for your service to our Nation and of course, 
the men and women under your command for their service, as 
well.
    So to all of our witnesses, over the past year or so, a 
persistent theme within the Armed Services Committee has been 
that of military readiness. And certainly, we have discussed 
many ways by which to increase support and resources to the 
Department of Defense.
    Yet Congress has not taken any lasting steps to reverse 
sequestration in order to meet these goals. CNO Richardson 
stated to this committee last March, in fact, that the ability 
to do maintenance on our ships was severely affected by 
sequestration.
    It incurred a readiness debt. So I know that this topic has 
been covered several times already this morning, so I am going 
to move on to another question. But I would just like to echo 
my colleagues' comments and note that sequestration really must 
be repealed. I am certainly looking for ways that we can do 
that.
    So let me move on to another topic, though, important to 
national security. And this is for all of our witnesses. 
Ensuring that the U.S. military can operate effectively across 
all domains, including cyberspace, one of my top priorities; 
this necessitates training and equipping our service men and 
women in cyberspace, which can be both costly and time-
consuming, understandably.
    But once we have trained these operators in cyberspace, how 
are you ensuring that they continue on this career path within 
the military? And how is each of your services recruiting and 
retaining the superior cyber warriors?
    General Allyn. Well, I will start and we will roll down the 
table here as quickly as we can, Congressman. Thanks for that 
question.
    It has absolutely been a focus for all of our services is 
how do you ensure you have the flexible retention policies in 
place to sustain these great professionals once we have them 
trained-up. I think you know it takes 18 to 24 months to train 
a fully trained, multidomain cyber warrior. And once we get 
them trained, we have to be able to sustain their presence in 
our force to be effective in a future battlefield.
    One insight I will offer to you, a vignette from a visit I 
had with some of our cyber warriors this past year. I asked 
exactly that question: What were we going to need to do to keep 
you in the force? And the response of one of our staff 
sergeants was, ``Sir, if I tried to do this on the outside, I 
would get arrested.'' And so, the mission that we provide them, 
the opportunity they have to contribute in this domain to 
national security is actually very, very attractive for them. 
But we must continue to watch to ensure that we both continue 
to access and retain them as we move forward.
    Mr. Langevin. Thank you, General.
    Admiral Moran. Yes, I would just add, Congressman, that the 
beauty of our services is that young men and women join because 
they want to serve. As long as we provide them that 
opportunity, whether it is at the high end of things that they 
wouldn't be allowed to do outside the service, and continue to 
provide them with the right compensation, we are going to be 
able to keep those that we need to keep.
    But we are also looking at other ways to keep them 
interested by ensuring that they are having the most modern 
training, the most modern education and capability training 
that they can get. Some of that involves allowing them to take 
time to go work in industries where these new technologies are 
being advanced and bring them back into the Navy and other 
services.
    And other ways are to be able to laterally bring people 
from industry and the commercial sector, who also want to 
serve, an opportunity to laterally move into the services and 
be able to go in and out. So some of the authorities we have 
asked for in legislation have been towards this end, the 
ability to move people freely between what the civilian market 
does and what we do for service.
    Mr. Langevin. And on that point, Admiral, I will just 
mention that I authored the provision along with support of the 
chairman, that brought down a lot of those barriers that 
allowed us to bring in private sector talent for a period of 
time. And same thing allow our men and women in uniform to also 
for a period of time be in the private sector to learn best 
practices and up-to-date skills there.
    So, I agree with you on that.
    Admiral Moran. Thank you for that, sir.
    Mr. Langevin. Thank you.
    General Wilson. If I can make it real quick is to say, you 
know, we are blessed that we get the best and brightest young 
people America has to offer to join our services. So we start 
with good people. We get them the right education, training, 
and experience. We make sure they are competent and proud of 
what they do, and personally, professionally fulfilled.
    And we have got efforts in all those little boxes to make 
sure we are doing that smartly, rightly. And how do we partner 
with our civilian partners to make sure that they are 
personally and professionally fulfilled to retain them over 
time is important.
    General Walters. I am with them, sir.
    Mr. Langevin. Thank you, General.
    I just hope that, in closing, that we are also maintaining 
the, you know, the career path for them to be able to advance 
in their careers to the next rank, while at the same time 
keeping them in this highly in-demand field, because cyber is 
not going away anytime soon.
    So thank you all, and I yield back.
    The Chairman. And just piggybacking on Mr. Langevin's point 
and Ms. McSally's point, about bringing in maintainers 
laterally or something. I mean, I trust you-all are all looking 
at these authorities for bringing in folks, and also for their 
promotion, their career track, what happens then.
    And certainly it is something that we are interested in 
assisting you with if some change in statute or some sort of 
authority, and I am going to trust you all as you look at it to 
let us know what you find, whether it is cyber or these other 
areas.
    I just want to touch on couple things right quick. Admiral 
Moran already answered the question what happens without a 
supplemental this year. He said they have got to decommission 
air wings, et cetera. Have the others of you looked at what you 
would have to do if there is no supplemental and funding is 
flat for the remainder of the fiscal year?
    General Wilson. I will start. Chairman, yes we have looked 
at this. A yearlong CR puts us into sequestration-type actions. 
To make up a $1.5 billion shortfall, right now the only place 
we can go is our readiness accounts, so we would have to go 
after flying hours, WSS [weapon system support], FRSM 
[facilities, sustainment, restoration and modernization]. It 
would have a dramatic impact on us, so that is why it is really 
important that we get an appropriations bill.
    General Walters. Sir, for us, the shining example is we 
would stop flying in about July.
    The Chairman. Completely?
    General Walters. Yes, sir. Caveated by the guys that are 
forward will still fly; all the flying back in the continental 
United States, all the training would cease without the 
supplemental, and that includes the parts money and the flying 
hour money. That is what would happen to us.
    General Allyn. And Chairman, for the United States Army, 
the increased authorization to an Active force of 476,000, a 
total force of 1.018 million, without the funding for that 
increase, we would set the conditions for a hollow force, which 
is absolutely unacceptable. And it will be felt by those forces 
preparing to deploy because, as with the Marine Corps, we will 
continue to deliver trained and ready forces for the known 
demands that we have, but our bench will be repleted and our 
equipment, training, and personnel readiness will all begin to 
suffer.
    The Chairman. Thank you.
    Admiral, we made brief reference, but we really haven't 
talked about carrier gap today. We have talked a lot about 
readiness, but it is, there is also the issue of whether we can 
be where we need to be when we need to be there, and I don't 
know how much detail you can get into in this forum, but can 
you describe briefly the concern about not having a carrier in 
key theaters at some points?
    Admiral Moran. Yes, sir, I will use what I believe is a 
great example. A couple years ago, when you will recall ISIS 
took a bunch of Yazidis hostage on a hilltop in northern Iraq, 
and national command authority wanted to be able to go push 
back that force. At the time, just based on agreements with 
partners in the region, the aircraft carrier and its component 
air wing and support ships was the only force really that was 
able to provide that top cover for about 54 consecutive days.
    The fact that we were there as part of a normal rotation 
allowed for that contingency. So every time you see a gap in 
areas where we have got troops on the ground, we have got 
combat ongoing and you don't have that capability at sea in the 
Gulf, eastern Med, South China Sea, and something erupts, we 
are not going to get there in time, to go back to the original 
discussion. So the idea of our global presence is to be there 
when things do erupt and try to prevent things from happening 
in the first place.
    The Chairman. But it is true, is it not, that in recent 
years we have had what we call a carrier gap, where we have not 
had a carrier, for example in the Persian Gulf, or in other key 
places around the world?
    Admiral Moran. Yes, sir, that is true, as recent as just 
the last few months, when Ike returned home and Bush was late, 
as we talked about earlier. Bush was late getting out of the 
yards. We chose to bring Ike back at our 7-month point so we 
can get her back in the maintenance lineup. That was all done 
jointly with the Joint Staff, but clearly for that period of 
time there was no carrier in the Gulf.
    The Chairman. Well, I want to thank you all. I am struck, 
and I don't remember which one of you made this comment, but 
one of the service chiefs in a meeting with the committee last 
year said the price for our lack of readiness is higher 
casualties. One of you mentioned that earlier today.
    I made some offhanded reference to the Super Bowl about if 
you don't get to practice, and then you go play the Super Bowl; 
the difference in this Super Bowl is there are lives at stake, 
and I know you all are acutely aware of that. I think members 
of the committee are, but it just adds a sense of importance 
and urgency to our joint work to get these problems fixed that 
we have identified today. You all have been helpful.
    Thank you for being here, the hearing stands adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            February 7, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 7, 2017

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
  



      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 7, 2017

=======================================================================

      

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. WITTMAN

    Admiral Moran. In addition to minimizing wear-and-tear on the 
fleet, disciplined schedule adherence, via the Optimized Fleet Response 
Plan (OFRP), is important to ensure that the limited public and private 
sector ship repair capacity is fully utilized. This has been, and will 
continue to be, challenging because of the high demand for Navy assets. 
In addition to schedule management, Navy is taking a number of steps to 
mitigate the combined impact of the backlog and workforce growth within 
the maintenance enterprise. First, availability schedules and workload 
projections in the Naval Shipyards have been adjusted based on the 
actual efficiency achieved by the new workforce brought on board over 
the last several years. Navy also routinely engages private/contracted 
shipyards to review and adjust availability schedules and workload 
projections based on hiring and execution capacity. This should help 
reduce unanticipated delays and cost overruns which have contributed to 
the backlog. Second, the Naval Shipyards are implementing new, 
innovative training processes to reduce the time to get new workers the 
skill sets to be initially useful and eventually become fully effective 
members of the team in comparison to the traditional on-the-job 
approach. Furthermore, open dialogue between Navy and private industry 
ensures contracted shipyards are aware of and responsive to the 
maintenance needs of the Fleet. Lastly, while the new shipyard 
workforce is being trained, Navy plans to more heavily leverage private 
sector capacity to increase throughput and address the backlog sooner. 
This includes continuing to contract out some submarine availabilities 
to the private shipbuilders, and bringing in more contractors to 
supplement the work performed within the Naval Shipyards.   [See page 
37.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. McSALLY
    General Wilson. Current USAF flight hours approximate the NATO 
Standard and exceeds the flight hours of potential adversaries. [See 
graph.]   [See page 46.]
[GRAPHIC] [TIFF OMITTED] T4676.048

            .epsRESPONSE TO QUESTION SUBMITTED BY MR. KELLY
    General Allyn. The National Defense Authorization Act (NDAA) 2017 
authorizes the Army to grow its end strength to 1.018M which allows the 
Army to sustain 58 BCTs. At this end strength the Army is still at a 
significant risk level trending toward high. As CSA Mark Milley has 
previously testified, an Army of 1.2 million and 66 BCTs designed 
around the existing defense strategy is required to reduce the risk to 
a moderate level. Any increase in end strength must be fully resourced. 
  [See page 14.]
    Admiral Moran. The Navy currently operates under a ``tiered 
readiness'' construct. To mitigate shortfalls in available resources 
the Navy has moved/re-prioritized aircraft, aircraft components and 
specific mission systems to ensure prescribed levels of readiness are 
met for those units advancing within their specific training cycle. The 
construct allows for the redistribution of finite assets according to 
resourcing requirements needed during each month of the Fleet Response 
Training Plan (FRTP). Fleet-wide requirements and risks to readiness 
are continually managed to ensure deployed units are fully capable for 
major combat operations. Typically, squadrons in a maintenance phase 
(not planned to deploy in the near future) or the Fleet Replacement 
Squadrons (FRS) are leveraged to support asset requirements. There are 
times a Carrier Air Wing (CVW) remains in a ``sustainment'' mode after 
a deployment. When this happens the CVW retains all of the necessary 
resource requirements to ensure they are able to deploy, if required. 
Generally, returning CVWs (not in sustainment) resource other unit 
requirements. Examples: Following the 2016 deployment, CVW-9 assets 
were re-prioritized to CVW-2 and CVW-11 for milestone training events. 
In March of 2017, three aircraft from Naval Air Station (NAS) Oceana, 
Virginia were moved to NAS Lemoore, California to support CVW-11 and 
CVW-17 milestone training events. The movement of assets (aircraft, 
aircraft components and specific mission systems) can be long-term such 
as a deployment or short-term to meet specific milestone training 
events. Ready Based Aircraft requirements are challenged by 
maintenance, repair, overhaul and parts shortages. In today's fiscal 
environment with a reduced level of Ready Basic Aircraft, squadron 
proficiency is continually challenged. Second order impacts can be seen 
during later phases of a CVW training cycle (prior to deployment), due 
to aircrew and maintainer backlogs for training and maintenance 
requirements that have been postponed due to resource availability. 
These backlogs or cumulative training and readiness gaps risk 
established Navy readiness requirements to support major combat 
operations.   [See page 14.]
    General Wilson. The Air Force's goal is to reach 60 healthy fighter 
squadrons and above 350,000 personnel.   [See page 14.]
    General Walters. [No answer was available at the time of printing.] 
  [See page 14.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 7, 2017

=======================================================================

      

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I am a firm believer that there is a place for 
matured, advanced technologies on the battlefield to complement the 
more traditional, kinetic weapons systems we already have in place. The 
laser weapons system onboard the USS Ponce is a great example, and in 
an austere budget environment under sequestration and multiple 
continuing resolutions, the cheap cost-per-shot with directed energy 
weapon systems is appealing to many. How are your services utilizing 
and adapting to advanced technologies such as these? Are your soldiers, 
sailors, airmen, and marines building confidence in their employment of 
these types of weapon systems?
    General Allyn. The Army has an aggressive, but responsible, path to 
demonstrate a pre-prototype High Energy Laser Counter-Rocket Artillery 
& Mortar (C-RAM) and Counter-Unmanned Aerial System (C-UAS) capability 
in Fiscal Year 2022 to support the Indirect Fires Protection Capability 
Increment 2-Intercept (IFPC Inc 2-I) Program of Record (POR). We 
continue to invest in advanced beam control and tracking technologies 
required for use in adverse environmental conditions, and investing in 
research to decrease size, weight, and power requirements that will 
dictate the platform size for the overall laser weapon system.
    In addition to some of the recent proof-of-concept demonstrations 
with the High Energy Laser Mobile Demonstrator, the Army has teamed 
with industry partners to integrate 2 kW and 5 kW lasers on to combat 
platforms for use in the annual Maneuver-Fires Integrated Experiment 
(MFIX) at Ft. Sill, Oklahoma. At this year's MFIX, Soldiers and Marines 
will use the laser system in realistic scenarios against small unmanned 
aerial systems. These type of events help inform requirements, tactics, 
techniques and procedures, concept of operations, and provide feedback 
to the developers that will be used to improve the system design for a 
POR.
    Mr. Langevin. I am a firm believer that there is a place for 
matured, advanced technologies on the battlefield to complement the 
more traditional, kinetic weapons systems we already have in place. The 
laser weapons system onboard the USS Ponce is a great example, and in 
an austere budget environment under sequestration and multiple 
continuing resolutions, the cheap cost-per-shot with directed energy 
weapon systems is appealing to many. How are your services utilizing 
and adapting to advanced technologies such as these? Are your soldiers, 
sailors, airmen, and marines building confidence in their employment of 
these types of weapon systems?
    Admiral Moran. The U.S. Navy has a spiral, multi-pronged approach 
to fielding laser weapon capability to the warfighter.
    <bullet>  Laser Weapon System (LaWS) on PONCE is a successful High 
Energy Laser (HEL) proof-of-concept that capitalized on advancements in 
COTS fiber laser technology. LaWS is the first-ever DOD laser weapon 
system deployed and approved for operational use, setting precedent for 
laser weapon safety and policy.
    <bullet>  Building on LaWS, the Navy is working on a plan to 
deliver Surface Navy Laser Weapon System (SNLWS) Increment 1 to a DDG 
in 2020. SNLWS is intended to incorporate a more powerful HEL with 
integrated Counter-ISR dazzling capability, leveraging mature and 
proven technology. By focusing on ship integration, combat system 
integration, reliability, and operational employment on a surface 
combatant, SNLWS Increment 1 will permit learning to inform future 
laser weapon acquisition efforts.
    <bullet>  SNLWS has been selected as the Navy's first Rapid 
Prototyping, Experimentation, and Demonstration (RPED) project, which 
will develop and field a HEL prototype and accelerate the integration 
of directed energy weapons into the fleet. The RPED program is designed 
to rapidly develop technologies that have an urgent field need.
    <bullet>  ONR's Solid State Laser Technology Maturation (SSL-TM) 
program is a 150 kW HEL demonstrator, scheduled for testing in 2018 
against a variety of relevant target sets. SSL-TM is maturing 
technology to inform future SNLWS increments, which will permit 
increased capability and expanded mission sets.
    <bullet>  In parallel with these efforts, the Navy is conducting 
Simulation Experiments (SIMEXs) to engage Warfighters early and permit 
operational feedback on employment of laser weapon systems. The most 
recent SIMEX was held in Oct 2016, and explored Tactics, Techniques, 
and Procedures (TTP) and mission effectiveness of Solid State Laser 
(SSL) employment in a Carrier Strike Group.
    These combined efforts are building confidence in future employment 
of laser weapon systems, and enable an incremental approach to 
increased laser weapon capability as technology continues to mature.
    Mr. Langevin. I am a firm believer that there is a place for 
matured, advanced technologies on the battlefield to complement the 
more traditional, kinetic weapons systems we already have in place. The 
laser weapons system onboard the USS Ponce is a great example, and in 
an austere budget environment under sequestration and multiple 
continuing resolutions, the cheap cost-per-shot with directed energy 
weapon systems is appealing to many. How are your services utilizing 
and adapting to advanced technologies such as these? Are your soldiers, 
sailors, airmen, and marines building confidence in their employment of 
these types of weapon systems?
    General Wilson. To date, there are no Air Force operationally 
fielded Directed Energy Weapons (DEWs). That being said, the Air Force 
believes we are at the pivotal point in history where DEWs are almost 
ready for transitioning out of the labs and into the hands of the 
warfighters. To support this transition, the Air Force has recently 
developed a DEW Flight Plan which is currently awaiting SecAF and CSAF 
approval. This flight plan directs multiple actions across the Air 
Force enterprise to enable the transition of Directed Energy 
capabilities to the warfighters by 2020, including experimentation, 
prototyping, and the establishment of a Joint Test Center to support 
the rapid transition of these capabilities while minimizing the cost to 
our taxpayers. We expect the current work being done will help Air 
Force Airmen adapt and use advanced DEWs technologies within the next 5 
years.
    Mr. Langevin. I am a firm believer that there is a place for 
matured, advanced technologies on the battlefield to complement the 
more traditional, kinetic weapons systems we already have in place. The 
laser weapons system onboard the USS Ponce is a great example, and in 
an austere budget environment under sequestration and multiple 
continuing resolutions, the cheap cost-per-shot with directed energy 
weapon systems is appealing to many. How are your services utilizing 
and adapting to advanced technologies such as these? Are your soldiers, 
sailors, airmen, and marines building confidence in their employment of 
these types of weapon systems?
    General Walters. [No answer was available at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. The committee heard testimony from combatant commanders 
last year about the operational challenges they will face with the 
implementation of the policy restricting the use of cluster munitions, 
and the resulting shortfall in availability of critical weapon systems. 
We also understand that developing new compliant munitions is a costly 
and time-consuming process. In the interim, what resources do you need 
to acquire capabilities that: (a) meet commanders' operational 
requirements; (b) keep unexploded ordnance to a minimum; and (c) do so 
in a rapid, cost-effective manner?
    What is the current status of the long range precision fires 
program, and in your opinion can we find reasonable ways to accelerate 
this program?
    General Allyn. The U.S. Army has developed a bridging solution for 
both the Cannon-Delivered Area Effects Munitions (C-DAEM) 155mm 
projectile and the Long Range Precision Fires (LRPF). The C-DAEM 
bridging strategy is an interim solution to replace the existing cannon 
delivered Dual Purpose Improved Conventional Munitions (DPICM) to 
mitigate or eliminate gaps for engagement of area targets, imprecisely 
located targets, moving targets, counterfire, and suppression of enemy 
air-defense. There is a directed requirement for the bridging strategy 
to procure 3,000(+) Sensor Fuzed Munitions delivered over a three year 
period to address medium and heavy armor targets. The bridging strategy 
also authorizes U.S. Army test & evaluation efforts of allied nation 
munitions to address light armor and personnel targets. Research 
Development Test and Engineering (RDT&E) cost to determine cluster 
munition compliance is estimated to be $8M (FY17) and future funding is 
anticipated. The U.S. Army would procure 5,000 of these anti-personnel 
type munitions delivered over a three year period. In addition, the 
U.S. Army is accelerating the Lithograph Fragmentation Technology for 
the M1128 projectile at a RDT&E cost of $9.866M (FY17) with future 
funding anticipated. Although the bridging strategy will provide a 
near-term capability, it will not fully mitigate the impact created on 
1 January 2019 when the use of our existing 155mm DPICM projectiles is 
prohibited. Furthermore, the C-DAEM program is not projected to begin 
deliveries of a DOD Policy compliant munition until 2026. The U.S. Army 
will conduct a Service Life Extension Program (SLEP) of the Army 
Tactical Missile System (ATACMS) as a bridging solution to meet the 
capability gap until the U.S. Army procures LRPF. The U.S. Army plans 
to SLEP a total of 1,500 ATACMS missiles. LRPF is currently in the 
Materiel Solution Analysis phase and is completing documentation 
necessary to support a decision to enter the Technology Maturation and 
Risk Reduction phase. Shortening the time it takes to deliver 
capability to the warfighter is one of the U.S. Army's top priorities. 
The U.S. Army is considering acceleration options and decisions to 
execute those options will be based upon a risk informed evaluation as 
technology maturation provides opportunities.
    Mr. Turner. General Dunford and key combatant commanders have all 
discussed shortfalls in precision-guided munitions and global munitions 
inventories. What is the magnitude of this shortfall and what steps are 
being taken by the military services to address it?
    General Allyn. The Army has shortages of critical preferred 
munitions based on current and emerging requirements. Shortages include 
PATRIOT, THAAD, Hellfire, TOW, Precision Guidance Kits and Excalibur. 
These shortages impact the Army's ability to execute Combatant Command 
OPLANs and to respond and surge rapidly when needed. We are currently 
updating analysis based on strategic guidance to determine the 
magnitude of gaps and priorities to address shortfalls. The results of 
our analysis which will inform resourcing strategies. The Army plans to 
begin addressing these shortfalls in our FY18 budget request and future 
budget submission. Additionally, to better support Combatant Commands, 
we are reviewing munitions positioning to prioritize locations for 
forward positioned stocks.
    Mr. Turner. As you know, the Army is rebuilding capability and 
capacity in Europe through the European Reassurance Initiative or ERI. 
I am pleased to see the Army is returning armor back to Europe to 
provide for increased credible deterrence against ongoing Russian 
aggression on NATO's eastern flank. Returning an Armored Brigade Combat 
Team on a rotational basis is a good first step, but I am concerned 
this may not be enough. Are you considering growing additional Armored 
Brigade Combat Teams that could be deployed to Europe either on a 
rotational or permanent basis, and will these Armored Brigade Teams be 
equipped with modernized equipment, for example, will they be equipped 
with the most modernized versions of Abrams Tanks and Bradley Fighting 
vehicles?
    General Allyn. The Army is in the process of growing additional 
Armored Brigade Combat Teams that would be available for global 
commitment. In addition to the recently announced conversion of an 
Infantry Brigade Combat Team to an Armored Brigade Combat Team this 
calendar year (pending PB17 funding), we also plan to create a 16th 
Armored Brigade Combat Team by 2019. Significantly, the 16th Armored 
Brigade Combat Team will be equipped with our most modern versions of 
Abrams Tank and Bradley Fighting Vehicle. The addition of these two 
armored formations better postures the Army to meet the defense 
strategic guidance by developing necessary capabilities to deter and 
defeat peer competitors. These decisions, however, must be informed by 
our available resources. If budget requests remain un-appropriated by 
Congress, we cannot modernize our armored formations.
    Mr. Turner. Given the rapidly changing security environment and the 
proliferation of more advanced rocket propelled grenades and anti-tank 
guided missiles I am particularly interested in the Army's vehicle 
active protection system initiative that will help mitigate these 
threats in the near term. Please provide the committee with an update 
on this initiative and are there ways that we can accelerate the 
fielding of this capability?
    General Allyn. The Army's Modular Active Protection System (MAPS) 
Program of Record strategy is based on commonality of components, 
integration tailored to the vehicle, and incremental capability 
building blocks. The MAPS program is anticipated to support fleet-wide 
capability. In the near term, an expedited Non-Developmental Item (NDI) 
risk reduction effort is in process. This risk reduction effort 
installs and characterizes three different NDI Active Protective System 
(APS) on Abrams, Bradley and Stryker platforms to assess the technical 
maturity, performance and suitability. The APS prototypes are the 
Trophy (Manufacturer--Rafael Advanced Defense Systems) on Abrams; Iron 
Fist Light Decoupled (Manufacturer--Israeli Military Industries) on 
Bradley; and Iron Curtain (Manufacturer--Artis Corporation) on Stryker. 
The Abrams/Trophy effort has completed the installation and calibration 
portion and is currently conducting characterization. Bradley/Iron Fist 
Light Decoupled and Stryker/Iron Curtain are completing the APS kit 
mounting bracket design and fabrication that occurs prior to the 
installation/calibration. The effort is fully funded and on schedule to 
support a decision in 1QFY18 on whether to pursue limited APS fielding 
on an accelerated timeline.
    Mr. Turner. General Dunford and key combatant commanders have all 
discussed shortfalls in precision-guided munitions and global munitions 
inventories. What is the magnitude of this shortfall and what steps are 
being taken by the military services to address it?
    Admiral Moran. The DON has had to accept risk in certain mission 
areas due to BCA/BBA reductions. We have already begun to put into 
place steps that will help mitigate these risks which include but are 
not limited to: adjustments in loading plans and focusing future 
investments on procurement and sustainment funding.
    WPN procurement in PB-17 was $3.209B and with FY17 RAA we propose 
increasing procurement by $0.172B for a total of $3.38B Specific 
procurements include:
    <bullet> 96 additional Tomahawk missiles
    <bullet> 30 additional Rolling Airframe Missiles (RAM)
    <bullet>  224 Laser Maverick Kits PANMC OCO procurement in PB-17 
was $0.066B and with FY17 RAA we propose increasing procurement by 
$0.058B for a total of $0.124B. The additional increase procures 
General Purpose bombs to replenish operational usage of JDAM and other 
munitions.
    Mr. Turner. Two years ago, the CNO testified that he had a strike 
fighter shortfall of ``2-3 squadrons.'' How has that changed over the 
past two years? What are the Navy's plans to address current and future 
shortfalls? Are the Navy's current plans in the future years defense 
program for procurement of F/A-18E/Fs and F-35Cs sufficient to address 
the strike fighter shortfall?
    Admiral Moran. We deploy our Carrier Strike Groups for strategic 
maritime control, for deterrence in places like the South China Sea or 
off the Korean Peninsula, and to project power where needed as in Syria 
and Iraq for the global fight on terror. The pace of deployed 
operations has not slowed, but the Strike Fighter inventory to conduct 
those operations continues to shrink as we expend approximately 2-3 
Strike/Fighter squadrons a year. Navy tactical aircraft are designed 
for a limited service life. The F/A-18 variant was designed to fly 
6,000 flight hours and to be in service 23 to 25 years. After 6,000 
flight hours, the aircraft will need to be stricken from the inventory 
since it has expended the designed service life of the airframe, 
systems and components. The F/A-18 fleet is flying on average 180,000 
flight hours per year which equates to the entire fleet expending 24-36 
aircraft worth of service life per year, or approximately 2-3 
squadrons. To complicate the situation, years of underfunded readiness 
accounts due to fiscal constraints of the Budget Control Act and 
Bipartisan Budget Acts have left our shelves short of parts, and many 
aircraft sit on the ramp in a non-mission capable status. This 
operational tempo and aircraft expenditure has caused an increasing 
strike fighter inventory management challenge. Our oldest F/A-18C 
aircraft are reaching the end of their service life, and the ones that 
are in the depot require extensive work due to corrosion and fatigue. 
To address this growing strike fighter shortfall, the Navy has three 
basic options or ``levers'':
    1) Manage and conserve hours on our aging fleet--unfortunately the 
world gets a vote and our operational tempo has not slowed;
    2) Extend aircraft service life from their originally planned 6,000 
hours to 9,000 hours (or more) using our aviation depots and commercial 
assistance;
    3) Procure new aircraft. The Navy expects the first F/A-18E/F to 
reach 6,000 hours in CY 2018. By the mid-2020s, we expect to induct 60-
70 aircraft per year into our depots. To solve our existing Strike 
Fighter gap, cover the surge in depot throughput, and increase capacity 
and readiness on the flight line, we must procure aircraft throughout 
the FYDP. The FY17 Request for Additional Appropriations begins to 
address these issues through increased funding of readiness accounts, 
depot maintenance and Super Hornet procurement, but sustained funding 
over time is necessary to solve the long-term Strike Fighter inventory 
problem.
    Mr. Turner. The committee heard testimony from combatant commanders 
last year about the operational challenges they will face with the 
implementation of the policy restricting the use of cluster munitions, 
and the resulting shortfall in availability of critical weapon systems. 
We also understand that developing new compliant munitions is a costly 
and time-consuming process. In the interim, what resources do you need 
to acquire capabilities that: (a) meet commanders' operational 
requirements; (b) keep unexploded ordnance to a minimum; and (c) do so 
in a rapid, cost-effective manner?
    General Wilson. The Air Force currently has plans for four 
development and procurement efforts to address different targeting 
aspects that were previous covered by cluster munitions. To address 
armored targets, both mobile and stationary, the Air Force is 
developing and procuring the Small Diameter Bomb increment II (SDB II). 
To address the smaller area softer targets, Air Force is developing and 
procuring the 500-pound Cast Ductile Iron (CDI) bomb. To address the 
larger area soft targets, Air Force is planning to design and procure a 
high fragmenting 2,000 pound bomb (HF-2K). To enhance effectiveness and 
lethality, Air Force is designing a cockpit selectable height of burst 
sensor (C-HOBS) that will work with both legacy and new warheads. The 
combination of these technologies are expected to meet combatant 
commanders' operation requirements and will keep unexploded ordnance to 
a minimum by using unitary warheads and avoiding use of cluster 
munitions. The plan will start providing capability in late FY18 with 
additional capabilities coming on line over the FYDP. The resources 
planned for these developments and production needs to be preserved to 
ensure these technologies are provided to the warfighter in a timely 
manner.
    Mr. Turner. General Dunford and key combatant commanders have all 
discussed shortfalls in precision-guided munitions and global munitions 
inventories. What is the magnitude of this shortfall and what steps are 
being taken by the military services to address it?
    General Wilson. Ongoing operations against ISIS are expending many 
more weapons (>51K) than planned for in a contingency operation (Air 
Force has expended an OPLAN level of munitions). As a result, most 
direct attack munitions have current and forecasted inventory 
shortfalls. Munitions experiencing shortfalls due to OIR are Hellfire 
missiles, Joint Direct Attack Munitions (JDAM), Small Diameter Bomb I 
(SDB I) and Hellfire missiles. High expenditures are expected to 
continue in FY17. We were able to utilize Overseas Contingency 
Operations funding to replenish the munitions with high combat 
expenditures to date. However, this funding, while important, is only a 
means of replenishing what is used in contingencies and generally 
results in replenishment 2-4 years after the munitions are expended.
    Mr. Turner. The Air Force currently has 55 fighter squadrons, but a 
recent ``State of the Air Force'' paper described a need to grow to 60 
fighter squadrons. What requirement is driving that increase of five 
fighter squadrons?
    General Wilson. The Air Force requires a fighter force structure to 
meet current Defense Planning Guidance (DPG) requirements and our 
current counterterrorism deployments. Our analysis has determined 55 
fighter squadrons does not allow for rotational counterterrorism forces 
to remain on task during a major theater conflict as described in the 
DPG. Additionally, the rotational demand on the 55 fighter squadron 
force has proven to decay personnel and equipment readiness for full 
spectrum conflict. The gradual growth to 60 fighter squadrons will 
improve readiness and reduce our capability and capacity challenges 
associated with meeting both a DPG-tasked scenario and counter-
terrorism operations.
    Mr. Turner. The committee heard testimony from combatant commanders 
last year about the operational challenges they will face with the 
implementation of the policy restricting the use of cluster munitions, 
and the resulting shortfall in availability of critical weapon systems. 
We also understand that developing new compliant munitions is a costly 
and time-consuming process. In the interim, what resources do you need 
to acquire capabilities that: (a) meet commanders' operational 
requirements; (b) keep unexploded ordnance to a minimum; and (c) do so 
in a rapid, cost-effective manner?
    General Walters. [No answer was available at the time of printing.]
    Mr. Turner. General Dunford and key combatant commanders have all 
discussed shortfalls in precision-guided munitions and global munitions 
inventories. What is the magnitude of this shortfall and what steps are 
being taken by the military services to address it?
    General Walters. [No answer was available at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The House Appropriations Committee has made cuts to 
the Army Operations and Maintenance Budget due to allegations that the 
Army is holding too much carryover. Can you discuss the impact that 
cuts to Army O&M have on things like production orders, systems, unit 
costs and depots? Would you say that ultimately these cuts cost us more 
than they save?
    General Allyn. I believe cuts to Army O&M impact our ability to 
conduct proper production planning, leading to inefficiencies and 
higher costs to the Army. Also, as workload declines, the reductions 
impact our ability to retain our skilled artisans and impact our 
ability to reconstitute capability requirements for wartime surge. This 
will make our ability to surge more expensive. Our goal is consistent 
and predictable funding that reduces this turbulence and enables our 
depots to create outputs that increase Army readiness at the lowest 
possible cost.
    Mr. Shuster. Genera Allyn, given the heightened threat picture we 
see around the world and the readiness issues being reported, do you 
believe current Army Organic Industrial Base capability meets the 
demand? In other words, do we have enough capacity in our depots to 
deal with the array of dangers we face in the world?
    General Allyn. Yes, the Army Organic Industrial Base (OIB), which 
is comprised primarily of manufacturing arsenals, maintenance depots, 
and ammunition plants, has the required capability and capacity to deal 
with the array of dangers we face in the world and to meet readiness 
demands. The Army continually assesses the capability and capacity of 
its OIB to ensure the Army maintains the required level of readiness to 
meet the needs of the Warfighter.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. General Allyn, Deputy Secretary of Defense Robert Work 
reported to Congress last year that more than 20 percent of the 
Department's bases will be considered excess by 2019. How much will 
that excess capacity cost the Army per year? Could those savings 
instead be applied to meeting unfunded Army requirements?
    General Allyn. The Office of the Secretary of Defense uses the 
Parametric Capability Analysis to estimate excess ``base loading 
capability. Using this analysis, the Army's estimated excess is 33 
percent at a Total Army strength of 980,000 Soldiers. The Army has done 
additional internal analysis of excess capacity as measured in square 
footage of facilities, and concluded that the Army would have 
approximately 21 percent or 161 million square feet of underutilized or 
excess capacity and our FY17 NDAA authorized strength of 1.018M 
Soldiers. The vast preponderance of excess capacity is not empty 
buildings, but partially occupied ones costing about the same to 
maintain as fully occupied buildings. Namely, it costs the Army about 
$3 per square foot per year to maintain an occupied facility, even if 
it is underutilized. So a conservative estimate for the carrying costs 
of this excess capacity is about $500M per year. On top of the facility 
costs, excess capacity generates significant fixed annual recurring 
costs in the Army's Base Operations Support (BOS) accounts. It costs 
between $30-50M per year to operate a medium-sized Army installation 
with municipal services like garbage/wastewater removal, security 
guards, IT support, landscaping, pest control management, child care, 
snow removal, commissaries etc. Most of these costs are the salaries of 
the garrison staff and support contractors, which are incurred 
regardless of whether the installation has 100 Soldiers, 1,000 Soldiers 
or 10,000 Soldiers assigned. Estimating excess capacity BOS costs is 
difficult because BOS expenses are non-linear relative to population, 
and savings accrue mainly when an installation is inactivated. 
Historically, this BOS expenses provided the bulk of the Army's $2B in 
annual recurring savings from the five previous BRAC rounds were 
realized. BRAC savings can be reinvested into higher priority areas and 
unfunded requirements, such as maintaining a higher force structure, 
increased readiness levels through higher-funded training events, 
expanded research, or additional procurement. BRAC also provides the 
Reserve Components an opportunity to re-look the demographic areas in 
which they operate, and recapitalize into a more efficient and mission 
effective footprint.
    Ms. Speier. Admiral Moran, Deputy Secretary of Defense Robert Work 
reported to Congress last year that more than 20 percent of the 
Department's bases will be considered excess by 2019. How much will 
that excess capacity cost the Navy per year? Could those savings 
instead be applied to meeting unfunded Navy requirements?
    Admiral Moran. Deputy Secretary of Defense Work's report to 
Congress indicated that indicated that the DOD has 22% excess 
infrastructure capacity when compared to then-projected FY19 force 
levels, distributed as follows: Army--33%; Navy--7%; Air Force--32%; 
and the Defense Logistics Agency--12%. This analysis was completed at a 
macro-level and did not identify specific bases or individual 
facilities by name. Since then, the Navy has proposed growing from an 
FY19 projection of 311 ships to 355 ships, and the Navy will need to 
reevaluate its excess capacity to determine if this amount still exists 
in light of potential force structure changes and/or increased 
requirements. The Base Realignment and Closure (BRAC) process is the 
only fair, objective, and proven process within which DOD can 
holistically review infrastructure to determine and reduce excess and 
configure its infrastructure so it is best positioned to meet strategic 
and mission requirements.
    Ms. Speier. General Wilson, Deputy Secretary of Defense Robert Work 
reported to Congress last year that more than 20 percent of the 
Department's bases will be considered excess by 2019. How much will 
that excess capacity cost the Air Force per year? Could those savings 
instead be applied to meeting unfunded Air Force requirements?
    General Wilson. To date, the Air Force has only executed high-level 
parametric analysis and has not analyzed excesses by specific 
categories whose costs could be estimated. Whole base closures are the 
most effective means to reduce infrastructure costs, and on average, 
the Air Force's annual savings after a BRAC round implementation is 
roughly $600M every year (five rounds of BRAC totaling $2.9B in annual 
savings).
    Savings from a new round of BRAC would be applied against the Air 
Force's next highest unfunded requirements. By consolidating missions 
onto fewer installations and closing whole installations it no longer 
needs, the Air Force would save every year in perpetuity, funding spent 
on keeping the gates open and lights on. This funding would be 
reallocated to bolster mission-critical readiness, modernization, and 
infrastructure spending at enduring installations.
    Ms. Speier. General Walters, Deputy Secretary of Defense Robert 
Work reported to Congress last year that more than 20 percent of the 
Department's bases will be considered excess by 2019. How much will 
that excess capacity cost the Marine Corps per year? Could those 
savings instead be applied to meeting unfunded Marine Corps 
requirements?
    General Walters. [No answer was available at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. General Allyn, your testimony today is nearly 
identical to General Milley's testimony before this committee last 
year: the Army is not ready ``to conduct sustained ground combat in a 
full spectrum environment against a highly lethal hybrid threat or 
near-peer adversary.'' In your best military judgment, do we have 
enough Armor BCTs, especially when you look at current and potential 
future commitments in Europe, the Pacific, and the Middle East?
    General Allyn. No. Based on extensive modeling and wargame 
analysis, any conflict in Europe would easily stretch the Army's armor 
capacity to a point where we don't have sufficient ready forces. What 
is often forgotten is the constant demand for armored formations in the 
ongoing operations in U.S. Army Central Command (USCENTCOM) area of 
responsibility, as well as the Korea rotation, and the requirement to 
support these missions indefinitely through the sustainable rotation of 
forces. Hence, if we were to confront two near simultaneous major 
conflicts, along with the current demand, we would barely have enough 
Armor BCTs, with every formation deployed regardless of readiness, and 
we would have no depth to rotate forces over the course of lengthy 
combat operations. This analysis is why an Army budget request for the 
FY17 Budget Supplemental and future budget requests will support the 
conversion of one IBCT to an ABCT in 2018 and 2019.
    Mr. Lamborn. The Army's recent Unfunded Priority List contained $1 
billion for air defense, which General Milley also recently spoke about 
as a priority at AUSA. Is the Army sufficiently prepared to defend 
itself from air threats, whether ISIS drones, attack helicopters, high-
end fighters, bombers, and cruise missiles, or rockets, artillery, and 
mortars, and what are you doing to better address this threat?
    General Allyn. The Army currently has the capability to defend our 
Soldiers and assets from a variety of air threats, but we lack 
sufficient capacity and, in some cases, capability to counter advanced 
threats. To address this in the near-term, we are modernizing our Air 
and Missile Defense (AMD) forces with digital radar processors, 
improved interceptors, upgraded sensors, advanced software builds, and 
a command and control system to integrate all Army air and missile 
defense systems. The Army has a Counter-Rocket, Artillery, and Mortar 
system using the Land-Based Phalanx Weapons System, deployed to 
multiple locations in Iraq and Afghanistan. We have also provided a 
variety of systems to USCENTCOM to defend against low, slow, small 
drones, and we are testing even more systems for employment in the near 
term. The Army is taking a phased approach to developing AMD 
capability; in the interim we are developing Stinger-based solutions, 
e.g. Stinger Proximity Fuse to increase lethality against these small 
drones. The objective solutions may include kinetic and non-kinetic 
defeat options. We will increase Maneuver-Short Range Air Defense 
(SHORAD) capacity over the next several years to field a mobile, 
survivable platform to protect our Soldiers from attack helicopters, 
drones, and other air threats. Additionally, the Army has programmed 
funding for the development and fielding of the Indirect Fire 
Protection Capability, Increment 2-Intercept (IFPC, Inc 2-I), with 
Initial Operational Capability (IOC) scheduled for 2020. Once fielded, 
the Army will protect static and semi-static assets from cruise 
missiles and unmanned aerial systems (UAS), and the Army will identify 
and engage fixed and rotary-wing threats at greater ranges than is 
currently possible. Finally, the Army intends to update our Patriot 
radar system with the Lower Tier Air and Missile Defense Sensor 
(LTAMDS). The effort will provide 360 degree capability to counter air 
threats from UAS to tactical ballistic missiles (TBM), with increased 
electronic and cyber protection to the system.
    Mr. Lamborn. What lessons did the Army learn from its recent 
movement of the 4th Infantry Division's 3rd Armored Brigade Combat Team 
from Germany to Poland via commercial rail?
    General Allyn. The Army utilized the deployment of 3/4 ID to 
validate current deployment processes and procedures. Multiple lessons 
learned from the tactical (unit load plans), operational (local port 
employee business practices) and strategic (sequencing of border 
crossings) will be incorporated into future operations. In addition, 
rail movement from ports in Europe to training areas in Poland provided 
us with an excellent opportunity to exercise our rail loading 
procedures and the command, control, coordination necessary to operate 
with both national and international partners. As we move forward and 
continue to conduct strategic mobilization and expeditionary 
operations, we will validate our rail and port operations during 
exercises in the continental United States and overseas.
    Mr. Lamborn. How are space and cyber being integrated into COCOM 
OPLANS, especially when it comes to addressing ``worst-case scenario'' 
space and cyber threats? Do you have sufficient authorities, resources, 
and posture to respond to space threats?
    General Wilson. The DOD has multiple options when responding to 
``worst case scenarios'' related to space and cyber threats. While U.S. 
Strategic Command has an overarching lead for addressing threat actors 
that cross multiple, Geographic Combatant Commands, the Air Force does 
have some thoughts for your consideration.
    First, there is a space annex integrated into each of the OPLANS 
that describes the actions and deployment of Air Force space systems. 
We have identified the necessary forces and are fully prepared to 
execute the actions contained within these OPLANS. Additionally, each 
combatant commander has the responsibility to protect critical 
warfighting assets in all five warfighting domains. Exercising specific 
OPLANS enables combatant commanders to identify vulnerabilities and 
prepare to fight in a contested environment.
    Air Force Space Command recognizes the growing space threat and 
continues to prepare forces for the contested space environment. The 
Space Enterprise Vision describes the future force and systems needed 
for mission assurance and the Space Mission Force construct permits Air 
Force Space Command personnel to conduct focused training for emerging 
threats.
    Second, consistent with its core responsibilities, the Department 
of Defense is prepared to support the Department of Homeland Security 
or a sector-specific agency to address threats to U.S. civilian 
critical infrastructure. Therefore, when directed, the U.S. military 
can conduct military operations, including cyberspace operations, to 
counter an imminent or on-going attack against critical infrastructure. 
Additionally, to facilitate multi-domain operations, the Air Force 
stood up non-kinetic effects cells within our Air Operations Centers 
that enable OPLAN execution to address the Joint Force Air Component 
Commanders objectives.
    To answer the second part of your question, CDR USSTRATCOM is 
responsible for posturing and employing space capabilities. We believe 
he is postured to employ his assets in a timely manner to respond to 
current and emerging space threats but doesn't have timely authorities, 
in all cases necessary, to fully protect all space assets. As the Space 
Domain becomes increasingly contested, we must develop and subsequently 
delegate authorities to the appropriate level to ensure the ability to 
protect of assigned systems against real-time threats.
    The Air Force Space Enterprise Vision (SEV) identifies numerous 
capabilities to counter emerging space threats. We need your help in 
funding SEV identified capabilities. Additionally, the Space Mission 
Force is predicated on advanced training to prepare crews to operate in 
a contested environment with advanced adversaries. The current training 
infrastructure requires additional resources to sufficiently (1) 
upgrade our modeling and simulation, (2) provide advanced adversarial 
training (aggressors), and (3) upgraded training ranges.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. General Wilson related ``it makes sense to invest 
wisely, so BRAC would help us make smart investments to prepare for the 
future.'' Furthermore, ``the Air Force has 25 percent excess 
capacity.''
    Please provide additional context for this statement and define the 
term 'excess capacity'?
    How was the figure 25 percent calculated and what is included?
    Is it 25 percent of aircraft support facilities such as runways, 
hangars, etc.?
    Is it 25 percent of overall base infrastructure to include work 
space facilities and housing?
    What installations have this excess?
    Given the Air Force's stated shortfall of pilots, low aircraft 
inventory, and the ever increasing demand on the depot facilities, how 
does the 25 percent excess capacity statement square with demand for 
growth?
    General Wilson. The Air Force estimates its excess infrastructure 
capacity using a parametric capacity analysis (PCA) that compares force 
structure and infrastructure inventory from a benchmark year 1989, and 
compares it to a future year force structure and infrastructure 
inventory. Infrastructure inventory was evaluated across several 
subsets including: parking apron; depot capacity; classroom space; 
space operations facilities; and product centers, laboratories, test 
and evaluation centers. PCA does not evaluate housing excess capacity.
    PCA yielded 28% excess capacity when plugging in AF's FY12 force 
structure (333K Active end strength and 5,587 Total Aircraft Inventory 
(TAI)). If we raise our force structure to 350K Active end strength 
with comparable increase in reserve component & TAI, PCA yields 24% 
excess capacity. VCSAF in testimony just rounded these figures to a 
rough ``25% excess capacity.''
    PCA is deliberately designed to not determine specific excess at 
any one base, but rather be a leading indicator of excess capacity 
across the Air Force enterprise considering changes in inventory and 
force structure. We do not have an installation-by-installation 
assessment of excess capacity as this would require a much more 
detailed, installation and weapon-system specific data collection and 
analysis effort.
    In summary, even at most aggressive force structure increases (350K 
Active end strength), AF still anticipates having sufficient excess 
capacity to allow divestiture of whole installations while maintaining 
enough swing space for contingencies. A BRAC will allow the AF to 
analyze future force structure and develop beddown scenarios which will 
allow us to grow in the right places.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRAVES
    Mr. Graves. General Wilson, in your testimony, you state ``we must 
restore full-spectrum readiness to continue to provide unrelenting 
Airpower for the joint force.'' The Air National Guard, and the 
National Guard in general, has seen an increase in overseas involvement 
since 2001, not only to combat terrorism but to provide vital support 
for peacekeeping missions.
    Given that part of their Federal mission is to maintain a well-
equipped force to be ready to defend the United States at a moment's 
notice, how have our current budget constraints affected the Guard's 
ability to fulfill their Federal commitment? Specifically how has our 
airlift capability been affected and how does that impact the overall 
goal of ``full-spectrum readiness?''
    General Wilson. The Air National Guard has faced many challenges in 
fulfilling our federal commitment. We were engaged in the Air 
Expeditionary Force before 9/11 and contributed essential forces to 
overseas contingencies as a key part of the U.S. Air Force. However, 
twenty-seven years of continuous combat combined with the negative 
incrementalism of force structure cuts to the active component and 
mission changes to the Guard have created a situation where our 
readiness has significantly degraded over the last eight years. Prior 
to BRAC 2005 our readiness concerns were focused on equipment. Today 
our most significant readiness concerns for both fighter and airlift 
capabilities has been personnel and training. The retirement of the 
baby boomers and significant and repeated unit mission changes along 
with the reduction of the active component training force (namely Air 
Education and Training Command) and more technical and demanding 
training has created a less experienced and younger force operating 
very old and aging aircraft and systems. Funding shortages have created 
parts and spares shortfalls and with an average fleet age of 31 years 
many parts are no longer available and must be specially manufactured. 
Many of our KC-135 aerial tankers were manufactured in the late 1950s 
but are at the heart of our ability to project power throughout the 
world. Budget cuts have reduced our C-5 and C-130 fleets to bare bones 
numbers and even with the lower numbers we struggle to train enough 
aircrews and maintenance personnel. Overall, our full-spectrum 
readiness is at historically low levels and not projected to level off 
or improve for several years. The good news is that Guardsmen continue 
to step up to their calling and have fulfilled their federal mission 
although this has been done at a great cost to themselves, their 
families, and their employers as the operations tempo keeps Guardsmen 
deployed to support our Combatant Commanders throughout the world.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Congress has demonstrated our desire for the Department 
of Defense (DOD) to use tubular LED (TLED) lights to replace 
fluorescent lights through many legislative means in the recent past. 
Congress has also encouraged the DOD to change the Unified Facilities 
Criteria (UFC) to allow greater usage of TLEDs on military bases. The 
Navy fleet already allows direct wire TLED technology for the fleet 
with great energy and manpower savings. Can you please explain to the 
committee why the DOD bans a safe and proven technology, used at major 
hospitals, schools, and other public building? Would you support 
changing the UFC to allow direct wire TLEDs on DOD bases?
    General Allyn. The Army does not support changing the UFC to allow 
Type B (aka, direct wire) Tubular LED retrofits into fluorescent 
lighting fixtures. The Department of Defense currently prohibits this 
type of lamp to be used as a retrofit on the basis that retrofitting 
fixtures with the Type B tubular LED has the potential for adverse 
incidents including overheating, smoking, and catching fire. 
Furthermore, the Tri-Services Electrical Working Group has expressed 
concern regarding worker safety in bypassing the ballast. This action 
could allow someone merely changing the light tube to be potentially 
subjected to voltages higher than 120V, which could result in serious 
injury, death, and arc flash hazard. Manufacturers of the Type B lamp 
will argue that by properly removing or disabling the ballasts 
eliminates the possibility the ballasts can overheat and thus become a 
life/health/safety risk. There is no easy way to ascertain that a 
retrofit project has correctly removed 100% of the ballasts without 
exception. Army sampling of projects retrofitted with Type B ballasts 
has found instances where the installer inadvertently left the ballast 
connected in multiple fixtures. It is important to note that when the 
fixtures are modified (or not) to accept the Type B lamps, there is no 
way to inspect without disassembling the lighting fixtures to ensure 
that the required modifications have been properly accomplished. This 
leaves open the possibility that the retrofit team may have 
inadvertently omitted fixtures from being properly retrofitted. Type B 
lamp retrofits require electrical (and possibly mechanical) fixture 
modification to bypass or remove the ballast, creating opportunities 
for unsafe alterations and associated electrical hazards. For these 
reasons, the Army does not intend to retrofit fluorescent lighting 
fixtures with direct wire TLEDs. The Department approves Type A lamps, 
which do not require any electrical or mechanical modifications, to be 
used during lighting efficiency retrofits. In fact, this is the most 
cost-effective Energy Conservation Measure (ECM) commonly used in 
Energy Savings Performance Contracts.
    Mr. Brooks. The tubular LED (TLED) lights used in today's fleet are 
not just glass tubes filled with gas, they are sophisticated, high-tech 
pieces of electronic equipment. That sophistication is what allows 
TLEDs to produce the highest quality light and reduce energy 
consumption while meeting the rigorous requirements of the Navy 
lighting specification. The Navy must be certain of the supply chain 
for the electronic components used in TLEDs. The Defense Logistics 
Agency (DLA) recently approved a Canadian manufacturer whose components 
are unknown to sale TLEDs to the U.S. Navy fleet. What will you do to 
ensure that the domestic industrial base for high-tech TLEDs are 
protected and how will you ensure that the components brought on board 
Navy ships are safe and secure?
    Admiral Moran. Under 10 U.S.C. 2500(1), Canada is considered part 
of the national technology and industrial base. The Navy defers 
inquiries regarding protections to the domestic industrial supply base 
to the Defense Logistics Agency. Tubular LED lighting is one of several 
LED lighting options available for shipboard use. Other available LED 
shipboard lighting options include LED lighting fixtures with an array 
of LED elements built into the fixture. LED lighting is widely 
available in the commercial, commercial marine and industrial lighting 
markets. By leveraging vendors and products that supply the commercial 
and industrial lighting markets, the Navy is utilizing an existing 
industrial base. These LED lighting vendors have demonstrated via a 
rigorous qualification process that they can produce LED lighting that 
meets the requirements for the shipboard environment. Navy technical 
and qualification requirements ensure components are safe for naval 
use. LED lighting products are tested per specification (MIL-DTL-16377) 
to ensure safety of personnel and equipment in a shipboard environment. 
From a security perspective, LED lighting is only connected to the 
shipboard electrical power and structural systems. Additionally, the 
lights undergo electromagnetic interference testing to insure that 
signals or interference from the LED lights will not impact or 
interfere with surrounding equipment.
    Mr. Brooks. Currently, the Navy has no commonality/standardization 
in regards to how you are updating your interior lighting for the 
fleet. You are using legacy fluorescent tubes, a LED bolt on array, a 
light guide, and replacing legacy florescent tubes with tubular LED 
(TLED) lights. Vice Admiral William Hilarides recommended a ``Common 
Interface'' for light sources across the fleet in all Type III 
shipboard luminaries. What steps are you and your office doing to 
implement this recommendation and achieve a ``Common Interface?'' It is 
my understanding that the Navy has converted roughly 34 percent of the 
fleets lighting from fluorescent tubes to TLEDs. Is simply keeping the 
current fixture and replacing fluorescent tubes with TLEDs the right 
answer?
    Admiral Moran. It is the Navy's intent to shift shipboard lighting 
away from fluorescent and incandescent lamps to LED lighting solutions 
to implement energy savings and to improve sailor shipboard quality of 
life. NAVSEA concluded that the most cost effective ``common 
interface'' is achieved through standardization of power, size, and 
mounting requirements. Updated requirements (MIL-DTL-16377) were signed 
out in June 2014 and allows for implementation of LED lighting in an 
affordable manner. The specification covers a broad range of shipboard 
applications, which allows users to select the proper configuration. 
This ``common interface'' accommodates the necessary commonality 
requirements to support both fixtures and tubes and allows for the use 
of TLEDs for new construction ships, and as replacements for 
fluorescent tubes as an economical ``backfit'' option for in-service 
ships.
    Mr. Brooks. Congress has demonstrated our desire for the Department 
of Defense (DOD) to use tubular LED (TLED) lights to replace 
fluorescent lights through many legislative means in the recent past. 
Congress has also encouraged the DOD to change the Unified Facilities 
Criteria (UFC) to allow greater usage of TLEDs on military bases. The 
Navy fleet already allows direct wire TLED technology for the fleet 
with great energy and manpower savings. Can you please explain to the 
committee why the DOD bans a safe and proven technology, used at major 
hospitals, schools, and other public building? Would you support 
changing the UFC to allow direct wire TLEDs on DOD bases?
    Admiral Moran. UFC 3-530-01 Interior Exterior Lighting and Controls 
allows the use of Type A TLEDs. This is supported across the Services 
and is recognized in criteria and contract solicitations. Type B 
(direct wire) TLEDs are not supported by UFC 3-530-01 Interior Exterior 
Lighting and Controls. The fluorescent light fixture ballasts serve to 
significantly limit incoming line current to the lamp holders. This 
limits the potential shock hazard and ARC flash (thermal) hazard to 
anyone changing a burned-out lamp while the fixture is energized. Type 
B LED retrofit installation requires removal or bypass of the light 
fixture's ballast. With the ballast removed or bypassed, incoming line 
current at full voltage (120, 277, or 480 volts) directly reaches the 
lamp holders. This exposes maintenance personnel to significant safety 
risks including electrical shock, ARC flash hazard, and fall hazard 
when installing and routinely replacing a lamp. On the other hand, Type 
A TLEDs do not require fixture modifications and provide safe and cost 
effective implementation of TLED technology into DOD facilities. A 
further complication is the lack of an industry standard for Type B 
lamp holders. Each manufacturer has its own unique lamp holder which 
prevents use of lamps from other manufacturers. This differs from all 
other types of commercially-available lighting technology (e.g., 
incandescent, metal halide, high-pressure sodium, induction, and 
fluorescent), each of which follows a common industry standard. (Type A 
linear LED lamps also fall into this category, by accommodating the 
standard lamp holder for fluorescent fixtures.) Should one make and 
model of Type B lamp prove unsatisfactory or become unavailable, the 
user would be forced to perform yet another modification to the fixture 
to accommodate the lamp holder of a different model or manufacturer.
    Mr. Brooks. Congress has demonstrated our desire for the Department 
of Defense (DOD) to use tubular LED (TLED) lights to replace 
fluorescent lights through many legislative means in the recent past. 
Congress has also encouraged the DOD to change the Unified Facilities 
Criteria (UFC) to allow greater usage of TLEDs on military bases. The 
Navy fleet already allows direct wire TLED technology for the fleet 
with great energy and manpower savings. Can you please explain to the 
committee why the DOD bans a safe and proven technology, used at major 
hospitals, schools, and other public building? Would you support 
changing the UFC to allow direct wire TLEDs on DOD bases?
    General Wilson. Unified Facilities Criteria (UFC) 3-530-01, 
Interior and Exterior Lighting Systems and Controls, was updated on 1 
Jun 2016 to allow linear LED lamps (also referred to as TLED lights) 
for Air Force and Army projects. The updated UFC can be found at 
https://www.wbdg.org/ffc/dod/unified-facilities-criteria-ufc/ufc-3-530-
01.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Like many of my colleagues, I want to focus on 
military readiness, but in the context of emerging threats, and how we 
maintain the edge on a 21st century battlefield. Other near-peer 
adversaries and terrorist organizations have both exercised an 
increased use of cyber capabilities to support their objectives. How 
confident are you in each of your services cyber capabilities and how 
well they are tied in to the interagency apparatus?
    General Allyn. The Army is very confident in its progress and 
development of the Cyber Mission Force and its operational capabilities 
in a very complex and contested domain. Today, the Army is engaged in 
real world cyberspace operations against our adversaries, and we will 
need additional tools, platforms, architecture and force structure to 
meet some operational demands. The Army's mission is to protect the 
Army's portion of the DOD information environment, support the joint 
cyber mission force and Unified Combatant Command requirements, as 
directed. In order to maintain our technological edge and prevail in 
the cyber domain we require sustained investment in building out the 
right force structure and development of the right capabilities. 
Cybersecurity requires a collaborative approach with a range of 
interagency and industry partners. Through U.S. Cyber Command 
(USCYBERCOM), ARCYBER partners with the DOD and Intelligence Community 
and collaborates with federal agencies, industry, academia and 
international partners. The Army can no longer assume continuous 
superiority in any domain because potential adversaries have made 
significant strides to disrupt or deny the use of Army combat 
capabilities that rely on the electromagnetic spectrum. In addition, we 
must also recognize the close interrelationship and interdependencies 
between the electromagnetic spectrum and the cyber domain. Accordingly, 
it is critical that the Army modernize its Electronic Warfare (EW) 
capabilities in order to first counter and then overmatch potential 
adversaries in the Electromagnetic Spectrum with EW capability and 
capacity.
    Ms. Stefanik. Like many of my colleagues, I want to focus on 
military readiness, but in the context of emerging threats, and how we 
maintain the edge on a 21st century battlefield. Other near-peer 
adversaries and terrorist organizations have both exercised an 
increased use of cyber capabilities to support their objectives. How 
confident are you in each of your services cyber capabilities and how 
well they are tied in to the interagency apparatus?
    Admiral Moran. The Navy has taken aggressive steps to hire and 
retain the cyber talent needed to operate and win in this new threat 
environment. We are maturing cyber offensive and defensive capabilities 
in concert with the joint forces and the interagency in order to assure 
our network availability and integrity while holding adversaries at 
risk. There is more work to be done to fully assure maritime command 
and control in a contested cyber environment, as the nature of this 
threat continues to morph over time. No one service or agency can do it 
alone and much of this work is conducted through the U.S. Cyber Command 
Cyber Mission Force on behalf of Combatant Commanders, DISA, and the 
Services. For cyberspace operations, collaboration, integration and 
coordination is extremely important due to the global operational 
nature of the cyber domain. To that end, the Navy has established a 
close working relationship with U.S. Cyber Command, our sister-
services, and our interagency partners to support a whole of nation 
response to cyber threats. As we continue to face this rapidly changing 
cyber threat environment, the Navy will remain vigilant in detecting 
and sharing cyber threat information with our joint and interagency 
partners to share best practices and ensure mission success across all 
warfighting domains.
    Ms. Stefanik. Like many of my colleagues, I want to focus on 
military readiness, but in the context of emerging threats, and how we 
maintain the edge on a 21st century battlefield. Other near-peer 
adversaries and terrorist organizations have both exercised an 
increased use of cyber capabilities to support their objectives. How 
confident are you in each of your services cyber capabilities and how 
well they are tied in to the interagency apparatus?
    General Wilson. The USAF has strong ties with the interagency and 
engages regularly with DHS, the National Intelligence community, and 
other federal partners. Our robust relationship helps with the sharing 
of indications and warnings and aids in focusing our mutual employment 
of our defensive cyber capabilities. While we continually strive to 
improve our operations, I am confident that our offensive forces can 
rise to the occasion when tasked to employ the required capabilities to 
achieve the desired effects.
    Ms. Stefanik. Like many of my colleagues, I want to focus on 
military readiness, but in the context of emerging threats, and how we 
maintain the edge on a 21st century battlefield. Other near-peer 
adversaries and terrorist organizations have both exercised an 
increased use of cyber capabilities to support their objectives. How 
confident are you in each of your services cyber capabilities and how 
well they are tied in to the interagency apparatus?
    General Walters. [No answer was available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. Our 21st century Army is playing a critical role in 
the Asia-Pacific, and notably strengthening our regional ties through 
programs like Pacific Pathways. Pohakuloa Training Area, on the Big 
Island of Hawaii, is leased by the Army but is used extensively for 
training by all the services, as well as the Hawaii National Guard and 
our State and County emergency responders. The Army's lease with the 
State is due to expire in 2029, and although there are several steps 
left in the Army's internal process before it can enter into 
negotiations with the State, Army Garrison Hawaii has made it clear 
that without access to the great training facilities at PTA, it will 
likely have to relocate the majority of its forces from Hawaii to the 
mainland. General, can you speak to the Army's commitment to 
maintaining its presence in Hawaii, and may I ask for your commitment 
to seek a long-term lease renewal with the State?
    General Allyn. The Army Operating Concept envisions Pohakuloa 
Training Area (PTA) as a regional training center, within the Pacific 
Training Complex, capable of supporting the United States Army Hawaii 
(USARHAW) home station and joint/multinational training requirements. 
The training environment is fully supported by Live-Virtual-
Constructive integrated training systems that enable Army units to 
achieve full readiness potential. Achieving this vision will require 
infrastructure investments to support the air, maritime, space, and 
cyber domains, and assured future access to the State of Hawaii leased 
lands on terms that allow the Army to fully utilize PTA to train as we 
fight. To that end, Headquarters, Department of the Army is 
coordinating with USARHAW and United States Army Pacific (USARPAC) on a 
request to be forwarded through the chain of command for authority to 
acquire a long-term interest in the currently leased State of Hawaii 
lands.
    Ms. Hanabusa. Admiral Moran, as you know, the Pacific Missile Range 
Facility on Kauai is home to an Aegis Ashore test site. What are your 
thoughts on converting PMRF into a combat-ready facility for missile 
defense to rebuff North Korea, and to a lesser extent China as needed?
    Admiral Moran. The Pacific Missile Range Facility (PMRF) and Aegis 
Ashore Missile Defense Test Complex (AAMDTC) are critical to Test and 
Evaluation (T&E) and training across a variety of warfare areas, 
directly benefiting programs from all the services and MDA. PMRF's 
unique, strategic, mid-Pacific location, combined with extensive range 
space, specialized instrumentation, and unique testing-focused 
logistics support, provide important capabilities to Ballistic Missile 
Defense testing and help sustain Navy readiness. If the AAMDTC was 
operationalized, it would adversely impact the further development of 
Joint defenses to rebuff a wide range of threats from North Korea or 
China due to losing a T&E and training site for a combat-ready, missile 
defense facility. MDA has commenced siting studies for a Homeland 
Defense Radar-Hawaii, which will provide better defense of the Hawaiian 
Islands. The AAMDTC would provide better service as it was originally 
intended--as the test bed for future Aegis technologies.
    Ms. Hanabusa. Maintaining the shipyard at Pearl Harbor provides us 
a huge strategic and geographical advantage, as it is 14 days steam 
time from Honolulu to the South China Sea, as opposed to 21 from the 
west coast of the U.S. Currently, however, our dry docks and 
infrastructure are in need of some significant upgrades. For example, 
Dry Dock 3 is not large enough to service Virginia-class submarines. 
Will the proposed buildup and improvement of Navy ships correspond with 
similar investment in our shipyards and other facilities?
    Admiral Moran. Once the Navy determines the timing of ships and 
makes homeporting decisions, infrastructure investment requirements 
will be identified and prioritized to ensure continued warfighter 
readiness.

                                  <all>
</pre></body></html>
